<html>
<title> - THE LEGISLATIVE PRESENTATIONS OF THE FLEET RESERVE ASSOCIATION, THE AIR FORCE SERGEANTS ASSOCIATION, THE RETIRED ENLISTED ASSOCIATION, THE GOLD STAR WIVES OF AMERICA, INC., AND THE MILITARY OFFICERS ASSOCIATION OF AMERICA</title>
<body><pre>[Senate Hearing 109-516]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-516
 
THE LEGISLATIVE PRESENTATIONS OF THE FLEET RESERVE ASSOCIATION, THE AIR 
FORCE SERGEANTS ASSOCIATION, THE RETIRED ENLISTED ASSOCIATION, THE GOLD 
 STAR WIVES OF AMERICA, INC., AND THE MILITARY OFFICERS ASSOCIATION OF 
                                AMERICA

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON VETERANS' AFFAIRS

                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 2, 2006

                               __________

       Printed for the use of the Committee on Veterans' Affairs


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate



                    U.S. GOVERNMENT PRINTING OFFICE

28-132 PDF                  WASHINGTON : 2007
------------------------------------------------------------------
For sale by Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800;
DC area (202) 512-1800 Fax:  (202) 512-2250. Mail:  Stop SSOP, 
Washington, DC 20402-0001



                     COMMITTEE ON VETERANS' AFFAIRS


        .........................................................


                    Larry E. Craig, Idaho, Chairman
Arlen Specter, Pennsylvania          Daniel K. Akaka, Hawaii, Ranking 
Kay Bailey Hutchison, Texas              Member
Lindsey O. Graham, South Carolina    John D. Rockefeller IV, West 
Richard Burr, North Carolina             Virginia
John Ensign, Nevada                  James M. Jeffords, (I), Vermont
John Thune, South Dakota             Patty Murray, Washington
Johnny Isakson, Georgia              Barack Obama, Illinois
                                     Ken Salazar, Colorado


                  Lupe Wissel, Majority Staff Director
               D. Noelani Kalipi, Minority Staff Director


                            C O N T E N T S

                              ----------                              

                             March 2, 2006

                                SENATORS

                                                                   Page


Craig, Hon. Larry E., Chairman, U.S. Senator from Idaho..........     1
Akaka, Hon. Daniel K., Ranking Member, U.S. Senator from Hawaii..     3
Thune, Hon. John, U.S. Senator from South Dakota.................    51

                               WITNESSES

Barnes, Joseph L., National Executive Secretary, Fleet Reserve 
  Association; accompanied by Chris Slawinski, National Veteran 
  Service Officer, Fleet Reserve Association.....................     5
    Prepared statement...........................................     7
Holleman, Deirdre Parke, National Legislative Director, the 
  Retired Enlisted Association...................................    13
    Prepared statement...........................................    15
Brown, Morgan D., Manager, Military and Government Relations, Air 
  Force Sergeants Association....................................    20
    Prepared statement...........................................    22
Norton, Colonel Robert F. (Ret.), U.S. Army; Deputy Director, 
  Government Relations, Military Officers Association............    30
    Prepared statement...........................................    31
Lee, Rose Elizabeth, Chairman, Legislative Committee, Gold Star 
  Wives of America, Inc.; accompanied by Edith Smith, Member, 
  Legislative Committee, Gold Star Wives of America, Inc.........    39
    Prepared statement...........................................    42


THE LEGISLATIVE PRESENTATIONS OF THE FLEET RESERVE ASSOCIATION, THE AIR 
FORCE SERGEANTS ASSOCIATION, THE RETIRED ENLISTED ASSOCIATION, THE GOLD 
 STAR WIVES OF AMERICA, INC., AND THE MILITARY OFFICERS ASSOCIATION OF 
                                AMERICA

                              ----------                              


                        THURSDAY, MARCH 2, 2006

                               U.S. Senate,
                    Committee on Veterans' Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:01 a.m., in 
room 106, Dirksen Senate Office Building, Hon. Larry E. Craig, 
Chairman of the Committee, presiding.
    Present: Senators Craig, Thune, and Akaka.

      OPENING STATEMENT OF HON. LARRY E. CRAIG, CHAIRMAN 
                    U.S. SENATOR FROM IDAHO

    Chairman Craig. Good morning, ladies and gentlemen. The 
Committee on Veterans' Affairs will now come to order.
    Good morning to all of our presenters. It is a great honor 
to have you before the Committee and a pleasure to welcome each 
of you to this second opportunity that we have had this week to 
receive legislative presentations from our veterans and 
military service organizations. We are looking forward to your 
comments.
    I would like to extend a very special welcome to the 
organization members who have traveled here, and we have not 
filled the room, but we know that all good intentions are out 
there. My guess is we are probably competing a little bit. The 
Secretary is on the other side of Capitol Hill at this time. So 
the House and the Senate are competing for attention. That will 
not stop us from focusing on your testimony and that which you 
have to present to us.
    You presenters are not merely important to us, but you will 
help us shape what is going to be an awfully important year. 
This is a unique opportunity for us to give our thanks for your 
dedication and for all of the work on behalf of the veterans 
and their families.
    We have mutual goals, mutual responsibilities, and your 
presentation in these hearings will help us tackle the 
difficult task of appropriately handling a myriad of very 
important issues in this session.
    Before I turn it over to the panel, I would like to say a 
few words about the Committee's activities last year and some 
important challenges that we will undertake this year.
    By any measure, this Committee had a busy and productive 
first session, convening 23 hearings here in Washington, 9 
field hearings, and 4 markups. Despite the depth and breadth of 
these issues and the many challenges we encountered, we 
accomplished many good things together: the enactment of 
legislation to increase disability compensation and survivor 
payments, to provide traumatic injury insurance protection to 
seriously wounded servicemembers, to increase the maximum 
amount of veterans' and servicemembers' life insurance 
coverage, and to close the parole loophole that allowed certain 
capital offenders to receive burial and funeral honors.
    In addition, the Committee also worked to fill a gap in VA 
health care funding which resulted in 6 consecutive years that 
VA's health care system has outranked the private sector for 
customer satisfaction.
    We also approved legislation to improve housing and PTSD 
and bereavement services, readjustment counseling, blindness 
rehabilitation, and other enhancements to health care programs. 
In the coming year, we will continue to work on issues of this 
magnitude.
    In your testimony, many of you have expressed interest in 
improving upon the seamless transition from military 
servicemember to civilian veteran. With the aid of pace-setting 
electronic medical records and world-class health care, I 
believe we have the necessary tools to make great strides. But 
through the spring, the Committee's focus must be on the 
President's fiscal year 2007 budget proposal. For the 
Department of Veterans Affairs, this is important.
    As I have stated at a hearing earlier this month and again 
earlier this week, I believe this record budget request is 
extraordinary and shows that in this fiscally austere climate, 
the President has chosen to make veterans a top budget 
priority.
    That said, I am concerned that at present spending rates, 
VA spending will double almost every 6 years and will soon 
collide with spending demands in other areas of Government. 
Although we may wish that veterans funding existed in a vacuum, 
it simply does not. It is a reality of our budget processes 
here, and we may face some important decisions about how to 
deal with these realities sooner than we would like.
    As I am sure everyone here is aware, the President has 
proposed one way for us to respond to these fiscal realities by 
asking Priority 7 and 8 veterans with no service-related 
disabilities to contribute $21 a month to enroll in the VA 
health care system and pay $15 for a 30-day supply of medicine. 
Although I personally find these proposals to be reasonable, I 
know some organizations have voiced strong opposition.
    I will reiterate my hope that your organization and others 
will engage this Committee in serious and candid discussion, if 
not about the President's proposal, then about other options. 
It is our collective responsibility and our collective 
obligation to sustain the incredible VA health care system into 
the future. If we begin addressing these issues now, we can 
help ensure that future veterans will not be faced with even 
bigger challenges and more radical changes to meet those 
challenges.
    Personally, I do not want to pass this issue on to the next 
guy. I want to pass on to tomorrow's veteran what we have 
collectively created, a health care system that provides 
quality care, that is accessible to those who need it, but 
affordable to those who want it.
    I hope you would agree with me about the goals that we are 
willing to work for, and if you will work with me, somehow we 
can accomplish these rather difficult tasks.
    Again, thank you all for joining us today. I think that the 
next few years will be ones of progress and wisdom in handling 
veterans' issues. I look forward to hearing your testimony and 
to continuing a dialogue with your organizations about the 
important issues concerning today's veterans.
    In that spirit, let me extend a warm welcome to the members 
of this panel. Joe Barnes is the national executive secretary 
of the Fleet Reserve Association. We welcome Deirdre Parke 
Holleman, the national legislative director for the Retired 
Enlisted Association, and also retired Master Sergeant Morgan 
Brown, the manager of Military and Government Relations of the 
Air Force Sergeants Association. Representing the Military 
Officers Association of America is the deputy director of 
Government Relations, Colonel Robert Norton, United States 
Army, retired. Finally, a warm welcome to Rose Lee, chairman of 
the Legislative Committee of the Gold Star Wives of America.
    Just this past year, Ms. Lee, you talked with us about the 
challenges that survivors face in accessing necessary benefits 
information, and we did something about it, and I intend to 
hold a hearing later this year to further evaluate the VA 
survivor benefits homepage. This is work in progress, and we 
will stay with it until it is usable, easily accessed, and 
understandable by all.
    It is a pleasure to work with all of you and to continue 
that work as we set our targets on the good and true service to 
our country's veterans.
    With that, let me turn to our Ranking Member Danny Akaka 
for any opening statements he would like to make, and then we 
will move on.
    Edie, I guess I didn't say hello to you. Accompanying Rose 
Lee, of course, is Edie Smith. Welcome.

         STATEMENT OF DANIEL K. AKAKA, RANKING MEMBER, 
                    U.S. SENATOR FROM HAWAII

    Senator Akaka. Thank you, Mr. Chairman.
    I want to add my welcome and greetings to all of you here. 
As the Chairman pointed out, we have a full house of panelists. 
We don't have any empty chairs at the table, and I am so glad 
to see all of you here.
    I want to thank you veterans for being here and 
representing the service organizations. There are five of them 
that you are representing here, and we are delighted to have 
all of you here. I know some of you have made this journey to 
our Nation's Capital, to express your concerns.
    Your being here at this hearing is truly democracy in 
action. Your organizations have a long and proud tradition, and 
this Committee relies heavily on your concerns and agendas for 
the coming year.
    At this time, I would like to share some concerns that I 
have. During this time last year--let's go back to that--many 
of us here in Congress were sounding the alarm that the VA 
budget was facing a crisis situation. Many months later, the 
Administration acknowledged this fact, and Congress took 
action, this Committee took action, to provide emergency 
funding.
    This year, I remain dedicated to ensuring that VA has the 
resources it needs to care for all veterans.
    We must learn a lesson from last year's budget crisis and 
do everything we can to ensure that veterans and their family 
members have access to health care and benefits they have 
earned.
    We cannot fund the VA system out of the pocket of middle-
income veterans, as many of these men and women make as little 
as $26,902 a year. Higher copayments and enrollment fees are 
not justified.
    Caring for servicemembers when they return home, in 
addition to veterans already in this system, must be considered 
part of the continuing cost of war. To date, a quarter of a 
million veterans have been excluded from VA health care. Over 
700 veterans in Hawaii have knocked on the doors of VA for 
care, only to be denied, and I am sure this has happened in 
other States. We must work to overturn this Administration's 
decision and open the VA system up to those who need it.
    I also am concerned about the VA research program being 
slated for a cut under this budget. Since its inception, the VA 
research program has made landmark contributions to the welfare 
of not only veterans, but the entire Nation, illustrating the 
unique importance of keeping it adequately funded.
    With thousands of military personnel engaged in conflict 
overseas, it is vital that Congress invest in research that 
could have a direct impact on their post-deployment quality of 
life.
    With regard to the VBA budget, I am concerned whether or 
not this budget provides an adequate level of staffing for 
compensation claims rating. Whatever the reason for the 
increase in compensation claims, VA must be ready to adjudicate 
claims in a timely and accurate manner.
    I will continue to monitor VA's workload and rating output 
because our veterans deserve nothing less than their claims 
rated accurately and in a reasonable amount of time.
    I will continue to oppose efforts to reduce veterans' 
compensation, as we saw with the ill-fated PTSD review. Now the 
Institute of Medicine and the Veterans' Disability Benefits 
Commission are reviewing veterans' disability compensation. It 
is my hope that these groups will recommend new ways for 
Congress to improve benefits, not call for cuts in current 
benefits. In this time of conflict abroad, a reduction in 
benefits would send the wrong message to veterans, 
servicemembers, and their families.
    My last priority is near and dear to my heart. As a veteran 
of World War II, I owe a great deal of where I am today to the 
GI bill, educational benefits I used as a young man. With this 
in mind, I will continue to look for ways to enhance and 
modernize educational benefits to more adequately prepare 
veterans for new challenges of our economy.
    In closing, I would like, once again, to thank the 
panelists for their testimony and all members of the 
organizations here today. Your service and your dedication to 
this Nation and its veterans is unquestionable.
    I also want to apologize that I will not be able, Mr. 
Chairman, to stay for the entire hearing this morning. My 
presence is required at another committee.
    I look forward to your presentation and working with you in 
the future.
    Thank you very much. Thank you, Mr. Chairman.
    Chairman Craig. Danny, thank you very much, and we 
certainly understand this is a busy time here on the Hill as we 
are trying to hear all aspects of the budget and begin the 
processes of an early portion of a session. So thank you for 
being here, and thank you for those opening remarks.
    Now, let us turn to our panelists. Joe Barnes, national 
executive secretary, Fleet Reserve Association, and he is 
accompanied by Chris Slawinski, a national veteran service 
officer, Fleet Reserve Association.
    Joe, please proceed.

 STATEMENT OF JOSEPH L. BARNES, NATIONAL EXECUTIVE SECRETARY, 
  FLEET RESERVE ASSOCIATION; ACCOMPANIED BY CHRIS SLAWINSKI, 
                   NATIONAL VETERAN SERVICE 
               OFFICER, FLEET RESERVE ASSOCIATION

    Mr. Barnes. Mr. Chairman, Senator Akaka, thank you for the 
opportunity to present FRA's recommendations on the fiscal year 
2007 Department of Veterans Affairs budget.
    As you noted, accompanying me today on my right is Chris 
Slawinski, our national service officer.
    FRA appreciates the increased funding in the fiscal year 
2007 budget, particularly for VA health care, long-term care, 
mental health, and other key accounts. This marks significant 
progress over last year's budget request and follows emergency 
supplemental appropriations that were necessary at the end of 
the last fiscal year, and I would note we sincerely appreciate 
your leadership in addressing this emergency funding shortage.
    Our members are very concerned about the discovery of 
inaccurate projections and faulty models used to prepare the 
previous budgets and GAO findings about the methods used to 
project management efficiency savings.
    FRA is also concerned about the assumptions used to prepare 
the budget which assumes congressional approval of a $250 
enrollment fee and significantly higher prescription copays for 
Priority 7 and 8 beneficiaries. This is not a new proposal, and 
FRA strongly opposes the establishment of these increases.
    VA health care funding must be adequate to meet the needs 
of the growing number of veterans seeking services, many from 
Operations Enduring Freedom and Iraqi Freedom, and the budget 
must be based on realistic projections.
    FRA believes that adequately funding health care and other 
programs for veterans, their families and survivors, is part of 
the cost of defending our Nation and ensuring our freedoms.
    The VA suspended enrollments in Priority Group 8 in 2003, 
and FRA urges the sufficient resources be authorized to allow 
resumption of enrollment for all veterans.
    FRA supports the authorization of Medicare reimbursements 
as an alternative to the enrollment fee in higher pharmacy 
copays. A significant number of veterans enrolled in the VA 
health care system have paid into Medicare. Yet, the VA is not 
authorized to receive reimbursements for providing services to 
these veterans.
    Injured combat veterans from Iraq and Afghanistan should be 
immediately processed into the VA system. This is also 
important for personnel retiring from military service with 
service-connected disabilities. Electronic medical records, 
plus expanded and improved coordination between DOD and VA, 
will ensure the seamless transitions of these personnel.
    FRA believes DVA's efforts in decreasing the backlog of 
initial disability claims are commendable, but the backlog of 
veterans waiting for decisions on their claims has grown 
significantly. Increased staffing levels within the VBA claims 
processing system would be a positive step toward reducing this 
backlog.
    FRA strongly supports adequate funding for medical and 
prosthetic research and is concerned about the budget for these 
programs and its reliance on partnering initiatives with other 
institutions. Ensuring sufficient funds to maintain VA's world-
class research program is very important.
    FRA supports the modernization of the MGIB to include much-
needed changes to Guard/Reserve benefits. The association 
believes MGIB benefits should cover the average cost of a 4-
year public college or university education.
    FRA also believes that Congress should restore and sustain 
education benefits to members of the selected Reserve to 47 
percent of basic benefits, as authorized when the MGIB was 
established in 1984.
    The Reserve MGIB should also be transferred from title 10 
to title 38 to allow better accountability and improved 
processing. There are thousands of senior enlisted personnel 
who entered service during the Veterans Education Assistance 
Program period, or VEAP era, from 1977 to 1985. They are 
seeking an opportunity to sign up for the MGIB. Included in 
this total are about 14,000 Navy personnel and nearly 5,000 
Marines.
    FRA urges authorization of an open enrollment period to 
provide an opportunity for them to sign up for the MGIB. This 
is a major issue within the career senior enlisted communities.
    Finally, some additional priority concerns for our members, 
these include full concurrent receipt of military retired pay 
and VA disability for all disabled retirees, support for 
shifting the effective paid-up date for SBP from 2008 to 2006 
for participants who have paid premiums for 30 years and are 70 
years of age, and last, FRA strongly supports needed reform of 
the Uniformed Services Former Spouses' Protection Act.
    Mr. Chairman, in closing, allow me to again express the 
appreciation of the association for what all the Members of the 
Veterans' Affairs Committee and the professional staff do for 
our Nation's veterans. Our legislative team stands ready to 
assist you and your staff at any time, and I stand ready to 
answer any questions you may have.
    Thank you.
    [The prepared statement of Mr. Barnes follows:]
 Prepared Statement of Joseph L. Barnes, National Executive Secretary, 
                       Fleet Reserve Association
    Mr. Chairman, and distinguished Members of the Committee, the 
membership of the Fleet Reserve Association (FRA) appreciates this 
opportunity to present the Association's fiscal year 2007 legislative 
goals. On behalf of more than 110,000 shipmates, I extend sincere 
gratitude for the concern, active interest and progress to date 
generated by the Committee in protecting, improving, and enhancing 
benefits that are truly deserved by our Nation's veterans. We look 
forward to working with you to further enhance the quality of life for 
over 25 million of our Nation's veterans, their families and survivors.
    FRA was established in 1924 and its name is derived from the Navy's 
program for personnel transferring to the Fleet Reserve or Fleet Marine 
Corps Reserve after 20 or more years of active duty, but less than 30 
years for retirement purposes. During the required period of service in 
the Fleet Reserve, assigned personnel earn retainer pay and are subject 
to recall by the Secretary of the Navy.
    As a congressionally chartered association, FRA's mission is to act 
as the premier ``watch dog'' organization in maintaining and improving 
the quality of life for Sea Service personnel and their families. FRA 
is a leading advocate on Capitol Hill for enlisted active duty, 
Reserve, retired and veterans of the United States Navy, Marine Corps, 
and Coast Guard.
                    the fiscal year 2007 dva budget
    FRA appreciates the Administration's proposed record $80.6 billion 
fiscal year 2007 budget, representing an $8.8 billion increase over the 
DVA's 2006 budget. And the 11.3 percent increase for veterans' health 
care, totaling $34.3 billion, is a step in the right direction toward 
maintaining the highest quality care for our Nation's veterans.
    However, the Association also questions the assumptions used to 
determine these amounts, particularly in shifting part of the cost 
burden on to veterans' shoulders.
    FRA strongly opposes the plan to impose a $250 enrollment fee for 
veterans in Priority Groups 7 and 8. The Administration's request also 
includes a recommendation to nearly double prescription drug copayments 
from $8 to $15, for a 30 day supply--a plan FRA also opposes.
    According to DVA estimates, 200,000 veterans would be discouraged 
from seeking VA health care, and more than a million veterans currently 
enrolled in Priority Groups 7 and 8 would drop out of the system if 
this fee structure were implemented. Beneficiaries in these Priority 
Groups are veterans, and FRA adamantly opposes shifting costs to them.
    Fortunately, the House Veterans Affairs Committee rejected the 
proposed enrollment fees, and increased copays in its Budget Views and 
Estimates. Instead, the Committee called for a $795.5 million increase 
to the budget, the amount of revenue projected from the fees and 
increased copays.
                         persistent shortfalls
    This past year is perhaps the most unique ever in the debate over 
the Department of Veterans' Affairs (DVA) budget. The Department 
acknowledged that it did not have the resources necessary to meet the 
growing demands being placed on its health care system due primarily to 
Operation Enduring Freedom (OEF) and Operation Iraqi Freedom (OIF).
    During the past year, DVA acknowledged that it was facing a 
shortfall of approximately $1 billion for veterans' health care funding 
for fiscal year 2005. During a subsequent hearing conducted by this 
distinguished Committee, Under Secretary for Health, Jonathan Perlin, 
MD, stated that because of flaws with its health care model, DVA would 
be transferring approximately $1 billion from other health care 
accounts in order to continue to meet the demand for care. During 
subsequent hearings, Secretary of Veterans Affairs James Nicholson 
explained that it would be necessary to transfer approximately $600 
million from operations and non-recurring maintenance accounts, and 
approximately $400 million from fiscal year 2006 funding.
    FRA appreciates your leadership and the Committee's immediate 
response to this situation by authorizing additional appropriations 
totaling $1.2 billion to cover the shortfall.
    However, despite these actions, DVA still faces the real 
possibility that it will not receive adequate resources in future 
budgets, and funds may not become available until after the start of 
each fiscal year. These factors place enormous stress on the system and 
will leave the DVA struggling to provide care that all veterans have 
earned and deserve.
    Assumed management efficiency savings also places a heavy burden on 
the Department to cut corners and do more with less which may lead to 
another shortfall and associated reductions to care for our Nation's 
veterans.
    Research by the Government Accounting Office (February 1, 2006) on 
methodology used by DVA, found that unrealistic assumptions, estimate 
errors, insufficient data, and inaccurate budget models resulted in the 
2005 DVA budget shortfalls. Hopefully these issues were taken into 
account in the preparation of the proposed fiscal year 2007 DVA budget.
                 discretionary versus mandatory funding
    Currently only the Veterans Benefits Administration (VBA) portion 
of the DVA budget is designated as mandatory spending, while the entire 
Veterans Healthcare Administration (VHA) part of the DVA budget is 
discretionary spending. Unfortunately the budgetary process has become 
more and more politicized and continues to fail veterans who depend on 
DVA for all or part of their healthcare.
    FRA concurs with, and endorses recommendations that the Committee 
on the Budget convert the veterans' health care account from 
discretionary to mandatory spending. FRA understands the jurisdictional 
and other challenges associated with this issue and believes that 
veterans' health care is as important as other Federal benefits funded 
in this manner. Regardless of the method used, the Association supports 
any efforts to help ensure full funding for VA Healthcare to ensure 
care for all beneficiaries.
                     veterans health administration
VA-DOD Collaboration
    The Departments of Defense (DOD) and Veterans Affairs have made 
great progress in sharing information and resources, but much more is 
needed, particularly with regard to access standards, to truly provide 
a ``seamless transition'' from military service to veteran status.
    This came to light during the January 2006 meeting of the Veterans 
Disability Benefits Commission (VDBC). Commissioners heard testimony of 
the real life stories from combat injured personnel returning from the 
front lines. The most compelling story came from Sarah Wade, wife of 
retired U.S. Army Sergeant Edward Wade who suffered a traumatic brain 
injury. He had his right arm amputated above the elbow, broke his right 
foot and suffered shrapnel wounds. While still in a coma, Wade was 
medically ``retired'' and shifted to the DVA. In her presentation to 
the Commission, Mrs. Wade reflected how her husband was pushed back and 
forth between the two departments to receive proper care. 
Unfortunately, this is not unique and there are other examples of 
personnel encountering challenges in moving from the military to DVA.
    Some OEF/OIE combat-injured servicemembers are being discharged or 
medically retired and transferred to VA without adequate consideration 
of family needs for adjustment counseling and seamless follow-up 
services.
    The Final Report of the ``President's Task Force (PTF) to Improve 
Health Care Delivery for Our Nation's Veterans'' (June 2003) addressed 
these and other issues that would smooth the transition of 
servicemembers to veterans' status and speed the development of their 
claims.
    FRA urges the Committee to review these recommendations, and due to 
the ongoing war on terror and the heightened importance of sharing 
services between departments, recommends hearings to review progress in 
implementing major PTF recommendations. This may also be beneficial to 
establishing outcome measures after assessing CARES, BRAC actions and 
other DOD Military Treatment Facilities initiatives.
Waiting Times
    FRA is encouraged by the goal of DVA to schedule 93.7 percent of 
all appointments within 30 days of a patient's desired date. The 
Association welcomes a detailed clarification on waiting times for 
appointments for veterans rated less than 50 percent service connected 
either on their first visit or those veterans who are already in the 
VHA system. FRA believes that a 30-day maximum wait is reasonable for 
routine care and will require that VA Medical Center directors monitor 
all appointments and make any necessary changes in a timelier manner.
DVA Medicare Subvention
    In 2003, then DVA Secretary Principi suspended enrollment in 
Priority Group 8. According to Congressional estimates, more than 
260,000 veterans who do not have illnesses or injuries incurred during 
military service and earn more than the average wage in their community 
have been prevented from enrolling. Although termed ``temporary'' at 
the time, it appears that this suspension will continue with no end in 
sight. FRA urges sufficient funding be authorized and appropriated to 
allow resumption of the enrollment process for all veterans.
    As previously stated, FRA opposes the imposition of a ``user's 
fee'' and an increase in copayments for prescriptions. A much better 
alternative would be the full and immediate implementation of DVA 
Medicare Subvention. The funds recovered from the Department of Health 
and Human Services (HHS) and specifically the Centers for Medicare and 
Medicaid Services (CMS), for health care provided to those eligible 
veterans, would go a long way in ensuring adequate health care for more 
veterans. But it would be incumbent that Congress mandate any funds 
recovered from CMS be provided to the VA and not put in the General 
Fund. It is puzzling to our members why this program has not been given 
serious consideration and enacted long ago.
VA+Choice
    In 2003, DVA also announced that a VA+Choice program would be 
established for veterans unable to enroll in the VA Health Care System. 
Subsequently, DVA's Health Services Research and Development Service 
conducted a study in 2005 to investigate the potential of developing a 
program now known as ``VA Advantage'' and how it would impact veterans' 
care to VA beneficiaries.
    FRA urges Congress to closely examine the report from this study 
before ``VA Advantage'' is fully implemented. There are numerous 
problems with Medicare+Choice programs in the country and it is 
becoming more difficult for Medicare-eligible beneficiaries to locate 
plans and doctors willing to accept new Medicare insured patients.
Nursing Homes, Long-Term Care, and Other Health Care Programs
    The Veterans Millennium Health Care Act, Public Law 106-117, 
Section 101, made great strides in providing long-term care for our 
veterans. However, this program is only authorized for a 4-year period, 
and only for veterans who need care for a service-connected disability, 
and/or those with service-connected disability ratings of 70 percent or 
more. This program should be extended, and expanded to include veterans 
with service-connected disability ratings of 50 percent or more.
    World War II and Korean veterans are in their late 60's and older, 
as are some Viet Nam veterans, and many require a greater level of 
long-term care. No one can argue that as veterans age, more and more of 
them will become dependent upon the VA to provide the necessary care in 
nursing homes, domiciles, state home facilities, and its underused 
hospital beds. The Nation can ill afford to wait for out-year funds 
before it expands nursing or long-term care.
    Congress and the Administration must ensure sufficient funding for 
the construction of new facilities and renovation of existing hospitals 
outlined by the CARES plan. Funding intended for implementation of 
CARES initiatives should not be diverted to other projects and CARES-
based construction should be allowed to proceed as planned.
    In implementing the CARES plan, DVA must ensure that mental health 
services and long-term care are made part of the full continuum of care 
for veterans. FRA commends DVA for moving forward on implementing the 
national strategic plan for mental health services, and progress on 
this plan should be incorporated into DVA's reporting to Congress on 
its capacities to care for veterans.
Medical and Prosthetic Research
    DVA is widely recognized for its effective research program and FRA 
continues to strongly support adequate funding for medical research and 
for the needs of the disabled veteran. The value of both programs 
within the veterans' community cannot be overstated. Noteworthy is the 
fact that the fiscal year 2007 proposed DVA Budget for Medical and 
Prosthetic Research shows a slight 1 percent increase ($17.3 million) 
in one of the most successful aspects of all VA Medical Programs. Even 
the DVA CARES Commission recommends the improvement and expansion of VA 
Medical Research Facilities.
                    veterans benefits administration
Total Force Montgomery GI Bill
    The Montgomery GI Bill is important and aids in the recruitment and 
retention of high-quality individuals for service in the active and 
Reserve forces; assists in the readjustment of service men and women to 
civilian life after they complete military service; extends the 
benefits of higher education (and training) to service men and women 
who may not be able to afford higher education; and enhances the Nation 
by providing a better educated and productive workforce.
    Double-digit education inflation is dramatically diminishing the 
value of MGIB. Despite recent increases, benefits fall well short of 
the actual cost of education at a 4-year public college or university. 
In addition, thousands of career servicemembers who entered service 
during the Veterans Education Assistance Program (VEAP) era, but 
declined to enroll in that program (in many cases, on the advice of 
government education officials) have been denied a MGIB enrollment 
opportunity.
    Unfortunately, not all of MGIB objectives are being achieved, 
particularly for mobilized members of the National Guard and Reserve 
forces. Specific concerns include:
    <bullet> Delayed implementation of MGIB benefits for mobilized 
Reservists authorized under Chapter 1607 of Title 10 USC. Few 
educational benefits claims have been processed for the more than 
500,000 personnel who have served on active duty under contingency 
operation orders since 9/11/01.
    <bullet> Mobilized Reservists lack of a readjustment benefit. They 
must leave behind remaining MGIB benefits upon separation unless the 
separation is for disability.
    <bullet> During the early years of the MGIB, benefits earned by 
Guard and Reserve members amounted to 47 cents to the dollar compared 
to active duty MGIB participants. Since 9/11/01, the ratio has dropped 
to 29 cents to the dollar.
    <bullet> Reserve MGIB programs are under Title 10, whereas basic 
MGIB benefits for active duty servicemembers are codified under Title 
38. There are major challenges in coordinating the oversight and 
management of MGIB programs. Outmoded information management and 
information technology is part of this.
    The Nation's active duty, Guard and Reserve forces are effectively 
being integrated under the Total Force concept, and educational 
benefits under the Montgomery GI Bill should be re-structured 
accordingly.
    FRA, along with its partners in The Military Coalition, the 
American Legion, the Veterans Independent Budget for fiscal year 2007, 
and major higher education associations, support enactment of a ``Total 
Force Montgomery GI Bill'' for the 21st century. The integration of 
active and Reserve force MGIB programs under Title 38 is very important 
and will provide equity of benefits for service performed, enable 
improved administration, and facilitate accomplishment of statutory 
purposes intended by Congress for the MGIB.
Disability Compensation Claims Processing
    DVA can promptly deliver benefits to entitled veterans only if it 
can process and adjudicate claims in a timely and accurate fashion. 
Given the critical importance of disability benefits, DVA has a 
paramount responsibility to maintain an effective delivery system, 
taking decisive and appropriate action to correct any deficiencies as 
soon as they become evident. However, DVA has neither maintained the 
necessary capacity to match and meet its claims workload nor corrected 
systemic deficiencies that compound the problem of inadequate capacity.
    Rather than making headway and overcoming the chronic claims 
backlog and consequent protracted delays in claims disposition, DVA has 
lost ground on the problem, with the backlog of pending claims growing 
substantially larger.
    FRA believes DVA's efforts in decreasing the backlog of initial 
disability claims are commendable but the backlog has swelled, 
increasing the lists of veterans waiting for decisions on their claims. 
FRA commends the Chairman for his statements at the December 8, 2005 
hearing on VBA claim processing and agrees that ``the increase in 
disability claims can be directly related to the increase in U.S. 
military operations abroad. Doing more with less is not a strategy of 
success.'' An increase in staffing levels within the VBA claims 
processing system is essential to moving forward to reduce this 
backlog.
Separation Pay
    Under current law, servicemembers released from active duty who 
fail to qualify for veterans' disability payments, and are not accepted 
by the National Guard or Reserve, never have to repay any portion of 
separation pay. However, if qualified for either, it's time for 
payback. FRA has difficulty understanding why the individual willing to 
further serve the Nation in uniform, or is awarded service-connected 
disability compensation, should have to repay the Federal Government 
for that privilege.
    FRA is opposed to the repayment requirement and recommends the 
repeal of, or the necessary technical language revision, to amend the 
applicable provisions in Chapters 51 and 53, 38 USC, to terminate the 
requirement to repay the subject benefits. (Also requires an amendment 
to 1704(h)(2), 10 USC.)
Court-Ordered Division of Veterans Compensation
    The intent of service-connected disability compensation is to 
financially assist a veteran whose disability may restrict his or her 
physical or mental capacity to earn a greater income from employment. 
FRA believes this payment is that of the veteran and should not be a 
concern in the states' Civil Courts. If a Civil Court finds the veteran 
must contribute financially to the support of his or her family, let 
the court set the amount allowing the veteran to choose the method of 
contribution. FRA has no problem with child support payments coming 
from any source. However VA disability should be exempt from 
garnishment for alimony. If the veteran chooses to make payments from 
the VA compensation award, then so be it. The Federal Government should 
not be involved in enforcing collections ordered by the states. Let the 
states bear the costs of their own decisions. FRA recommends the 
adoption of stronger language offsetting the provisions in 42 USC, now 
permitting Federal enforcement of state court-ordered divisions of 
veterans' compensation payments.
                    national cemetery administration
Cemetery Systems
    The National Cemetery Administration (NCA) has undergone many 
changes since its inception in 1862. Currently, the administration 
maintains almost 2.5 million gravesites at 124 national cemeteries in 
39 states, the District of Columbia, and Puerto Rico.
    VA estimates that about 24.4 million veterans are alive today. They 
include veterans from World War I, World War II, the Korean War, the 
Vietnam War, the Gulf War, and the global war on terrorism, as well as 
peacetime veterans. Nearly 688,000 veteran deaths are estimated to 
occur in 2006 and it is expected that one in every six of these 
veterans will request burial in a national cemetery.
    FRA is grateful to Congress for funding new cemetery sites and 
urges authorization of funding for new cemeteries in Bakersfield, 
California, Birmingham, Alabama, Columbia/Greenville, South Carolina, 
Jacksonville, Florida, Southeastern Pennsylvania, and Sarasota, 
Florida. The NCA needs initial funding for these cemeteries in order to 
meet the expected demand over the next several decades. The NCA is 
doing much to meet resource challenges and the demand for burial spaces 
for aging veterans. With additional resources, the NCA will hopefully 
be able to meet the demand. FRA urges increased funding, which is 
fenced for the purchase of land, preparation, construction and 
operation of new cemeteries, the maintenance of existing cemeteries, 
and the expansion of grants to States to construct and operate their 
own cemeteries.
    As part of the Veterans Education and Benefits Act of 2001, the 
government is to provide grave markers for veterans whenever requested, 
even if there is another marker on the grave. However, as written, the 
law only applies to burials after December 27, 2001. FRA believes the 
grave-marker rule should be amended to include the thousands of 
families denied grave markers in the past decade.
                other recommendations for consideration
Concurrent Receipt
    FRA continues its advocacy for full concurrent receipt of military 
retired pay and veterans' service-connected disability payments as 
envisioned in H.R. 303, introduced by Representative Michael Bilirakis 
of Florida.
    The fiscal year 2006 Defense Authorization Act reduced the phase in 
period for disabled military retirees deemed ``individual 
unemployable'' (IU) from 2014 to 2009, and FRA appreciates this 
progress. However, our members are extremely disappointed and perplexed 
that such undeserved discrimination will be allowed to continue for 
three more years.
    FRA urges the Committee to end the disability offset to retired pay 
immediately for otherwise-qualifying members rated as ``individual 
unemployable'' by the DVA.
    Progress has been made in recent years to expand Combat-Related 
Special Compensation (CRSC) to all retirees with combat-related 
disabilities and authorize concurrent receipt of retired pay and 
veterans' disability compensation for retirees with disabilities of at 
least 50 percent.
    While the concurrent receipt provisions enacted by Congress benefit 
tens of thousands disabled retirees, an equal number are still excluded 
from the same principle that eliminates the disability offset for those 
with 50 percent or higher disabilities. The fiscal challenge 
notwithstanding, eliminating the disability offset for those with 
disabilities of 50 percent is just as valid for those with 40 percent 
and below, and FRA urges the Committee to be sensitive to the thousands 
of disabled retirees who are excluded from current provisions.
    As a priority, FRA asks the Committee to consider those who had 
their careers cut short solely because they became disabled by combat 
or combat-related events, and were forced into medical retirement 
before they could complete their careers.
    Under current law, a member who is shot in the finger and retires 
at 20 years of service with a 10-percent combat-related disability is 
rightly protected against having that disability compensation from his 
or her earned retired pay. But a member, who is shot through the spine, 
becomes a quadriplegic and is forced to retire with 19 years and 11 
months of service, suffers full deduction of VA disability compensation 
from his or her retired pay. This is grossly unfair.
    For chapter 61 (disability) retirees who have more than 20 years of 
service, the government recognizes that part of that retired pay is 
earned by service, and part of it is extra compensation for the 
service-incurred disability. The added amount for disability is still 
subject to offset by any VA disability compensation, but the service-
earned portion (at 2.5 percent of pay times years of service) is 
protected against such offset.
    FRA believes strongly that a member who is forced to retire short 
of 20 years of service because of a combat disability must be 
``vested'' in the service-earned share of retired pay at the same 2.5 
percent per year of service rate as members with 20+ years of service, 
as envisioned in H.R 1366, also introduced by House Representative 
Michael Bilirakis of Florida. This would avoid the ``all or nothing'' 
inequity of the current 20-year threshold, while recognizing that 
retired pay for those with few years of service is almost all for 
disability rather than for service and therefore still subject to the 
VA offset.
Veterans Disability Benefits Commission
    FRA understands that many in Congress are looking to the Veterans 
Disability Benefits Commission (VDBC) for recommendations on this and 
other issues, and we fully expect the Commission will validate the 
principle that a military retiree should not forfeit any portion of 
earned retired pay simply because he or she also had the misfortune of 
incurring a service-connected disability.
    But FRA is concerned that the recent extension of the Commission's 
work can only delay an equitable outcome further. In the meantime, FRA 
believes action is needed on the critical areas which we believe there 
should be little question as to their propriety.
Uniformed Former Spouses Protection Act (USFSPA)
    The USFSPA was enacted over 20 years ago; the result of 
Congressional maneuvering that denied the opposition an opportunity to 
express its position in open public hearings. With one exception, only 
private and public entities favoring the proposal were permitted to 
testify before the Senate Manpower and Personnel Subcommittee. Since 
then, Congress has made 23 amendments to the Act: eighteen benefiting 
former spouses. All but two of the amendments were adopted without 
public hearings, discussions, or debate. Since adoption, opponents of 
the USFSPA or many of its existing inequitable provisions have had 
opportunities to voice their concern to a Congressional panel. The last 
hearing, in 1999, was conducted by the House Veterans Affairs Committee 
and not the Armed Services Committee that has the oversight authority 
for amending the USFSPA.
    One of the major problems with the USFSPA, of its few provisions 
protecting the rights of the servicemember, none are enforceable by the 
Department of Justice or DOD. If a State court violates the right of 
the servicemember under the provisions of USFSPA, the Solicitor General 
will make no move to reverse the error. Why? Because the Act fails to 
have the enforceable language required for Justice or the Defense 
Department to react. The only recourse is for the servicemember to 
appeal to the court, which in many cases gives that court jurisdiction 
over the member. Another infraction is committed by some State courts 
awarding a percentage of veterans' compensation to ex-spouses, a clear 
violation of U.S. law, yet, the Federal Government does nothing to stop 
this transgression.
    FRA believes Congress needs to take a hard look at the USFSPA with 
a sense of purpose to amend the language therein so that the Federal 
Government is required to protect its servicemembers against State 
courts that ignore provisions of the Act. More so, a few of the other 
provisions weigh heavily in favor of former spouses. For example, when 
a divorce is granted and the former spouse is awarded a percentage of 
the servicemember's retired pay, this should be based on the member's 
pay grade at the time of the divorce and not at a higher grade that may 
be held upon retirement. The former spouse has done nothing to assist 
or enhance the member's advancements subsequent to the divorce; 
therefore, the former spouse should not be entitled to a percentage of 
the retirement pay earned as a result of service after the decree is 
awarded. Additionally, Congress should review other provisions 
considered inequitable or inconsistent with former spouses' laws 
affecting other Federal employees with an eye toward amending the Act.
Survivor Benefit Plan
    FRA appreciates recent enhancements to the military's Survivor 
Benefit Plan (SBP) to increase benefits for survivors over several 
years. Unfortunately, there is another inequity to the program that is 
a major concern for our membership.
    FRA strongly supports an amendment to the program to accelerate 
from 2008 to 2006 the time the military retiree will be a paid-up 
participant after paying premiums for 30 years and is at least 70 years 
of age. This is an equity issue for participants who've paid premiums 
since the program was established in 1972.
                               conclusion
    Mr. Chairman, in closing, allow me to again express the sincere 
appreciation of the Association's membership for all that you and the 
Members of the Veterans Affairs Committee do for our Nation's veterans.
    Our Legislative Team stands ready to meet with you, other Members 
of the Committees or their staffs at any time, to work together to 
improve benefits and entitlements for all veterans.

    Chairman Craig. Joe, thank you very much for that very 
thoughtful testimony.
    Now let's turn to Deirdre Parke Holleman. I think I misused 
that last name a little bit when I introduced you.
    Ms. Parke Holleman. That is fine.
    Chairman Craig. National legislative director, the Retired 
Enlisted Association. Welcome.

         STATEMENT OF DEIRDRE PARKE HOLLEMAN, NATIONAL 
     LEGISLATIVE DIRECTOR, THE RETIRED ENLISTED ASSOCIATION

    Ms. Parke Holleman. Thank you. Good morning, Mr. Chairman.
    May I ask that our full written testimony be made part of 
the record?
    Chairman Craig. Thank you for asking. It certainly will be. 
All of your full written statements and any accompanying 
material will be a part of the official record.
    Ms. Parke Holleman. Thank you.
    Mr. Chairman, it is always an honor for TREA to speak on 
the issues and concerns facing today's and tomorrow's veterans 
and their families.
    As we all know, this is a crucial time for our country. We 
are waging a war on terror, both at home and abroad. There are 
additional servicemembers deployed in numerous hot spots 
throughout the world, and the veterans who have protected us 
throughout history, in both hot and cold wars, are getting 
older and in more need of their Nation's help.
    TREA is a nationwide organization whose members have served 
a career in the enlisted ranks or of our military or are doing 
so at this time. The services and benefits, that they are the 
provenance of the Department of Veterans Affairs and this 
Committee, are crucial for them to be able to live the life in 
their retirement years that they have so justly earned. TREA is 
grateful to everyone who has worked to create these benefits 
and to make sure that they are implemented in an efficient and 
fair way.
    We should start with the statement that TREA was pleased 
and relieved at the realistic figure that the Administration 
put in its budgetary request for VA health care this year. It 
is a far more sensible and workable amount than what had 
previously been requested and what you had to repair.
    We are also pleased that the President exempted the VA from 
the across-the-board cuts that most of the Federal Government 
is dealing with. During this time of increased medical needs, 
it is clear that returning veterans need more focus, not less, 
on the VA health care system.
    Of course, we do not agree with all of the Administration 
proposals for the last several years. TREA, as well as other 
organizations, has been firmly opposed to the proposed 
imposition of a $250 enrollment fee for those veterans 
presently enrolled in Category 7 and 8, and we are opposed to 
it again this year.
    This proposal is unwise and unfair for several reasons. 
First of all, this was not what these veterans were promised 
when they enrolled at the urging of the VA.
    Second, the veterans in 7 and 8 do not have priority to be 
seen or access standards for care. Therefore, they are the 
equivalent of ``Space A,'' space available. There is no 
guarantee of care. However, everyone in this large room knows 
that if you start charging a yearly fee, the beneficiaries will 
predictably and rightly demand the care that they are paying 
for. Rather than lessening the work requirements of the VA, it 
will most likely increase them.
    The VA predicts that 325,000 beneficiaries will leave 
Categories 7 and 8 in the coming fiscal year. We presume that 
number is based on the expectation that many present enrollees 
will drop out rather than pay the yearly fee, but that is not 
an appropriate way to lessen one's caseload, and we believe the 
ones who remain will be predictably more demanding. So it is 
not even an effective way.
    Additionally, the VA states in their proposal that they 
expect to collect $3 billion, more or less, in third-party 
insurance claims, OHI. We are doubtful that they will be able 
to reach that heady goal. In the past, they have had trouble. 
They have not been very successful in collecting private 
insurance claims, but if this is a serious goal for them, these 
beneficiaries in Categories 7 and 8 should be the main source 
of such insurance. These veterans cannot depend on the VA for 
all their health care and so are much more likely to have plans 
that the VA may look to for collections.
    Numerous people, both in this Committee and at the VA, 
believe that veterans choose to enroll in the Categories 7 and 
8 to get the drug benefit. If that is correct, the new Medicare 
Part D benefit, once it settles down, should cause a drop in 
enrolled veterans looking to obtain service. The new drug plan 
will have several advantages for them. They can use their 
civilian doctor scripts. They can have them filled near their 
homes, et cetera. If we are correct, the concerns about the 
cost of Categories 7 and 8 should subside without unfair and 
unpopular steps being taken.
    TREA is also firmly against the Administration's proposal 
to raise the pharmacy copays to $15 for a 30-day prescripton 
for 7s and 8s. This year, the VA raised its copay from $7 to 
$8, and I assure you, it caused great consternation in many of 
our members. These veterans are not being petty or cheap. They 
are on fixed incomes, and many have many daily medications.
    TREA assures you that practically doubling the copay would 
be disastrous to many of our members, and we hope you will 
oppose that proposal.
    These proposals, as well as the draconian proposed 
increases in enrollment fees and deductibles in TRICARE Prime 
and TRICARE Standard on the DOD side are meant, we believe, not 
primarily to raise money, but rather to disabuse veterans and 
military retirees from using the benefits that they have earned 
and deserve due to their brave and dedicated service. This is 
not the way to try and save money, and we hope and expect that 
Congress will also find it unacceptable.
    The VA, as you well know, is tasked not only to care for 
those who have borne the battle, but also widows and orphans. 
TREA was very pleased and grateful that Congress increased the 
top amount of SGLI to $400,000 as well as increasing the death 
gratuity to $100,000. Thank you so much for these improvements.
    As you well know, TREA and all the members of the Coalition 
Alliance have also worked hard last year to try and end the 
SBP/DIC offset. Of course, we are well aware that is not your 
Committee of jurisdiction, but we also know of your focus and 
concern for military widows and that many of you are also on 
the Armed Services Committee. Therefore, we urge all of you to 
convince your colleagues that this is the time to finally 
correct this unfair situation.
    Although we know it is a great task, TREA also hopes that 
this Committee will take on more work. It is crucial to look 
toward improving and modernizing the Montgomery GI bill. As 
stated by Mr. Barnes, the split between title 10 and title 38 
makes the coordination and improvements of the bill that you 
have done much harder to accomplish, and we hope that joining 
them together, this bill will no longer be the stepchild in the 
title 10 for Guard and Reserve, but rather be in its proper 
place here.
    There are more suggestions in our written testimony, and we 
would be grateful if you would consider them all. We all share 
a love and admiration for our servicemembers, our veterans, our 
military retirees and their families and survivors. Because 
they have served and dared, we can live in freedom and argue 
public policy.
    TREA is grateful for all the efforts and time the Members 
of this Committee and their staff has dedicated to making the 
VA the best that it can be. We believe that adoption of our 
suggestions would make its service even more effective.
    We thank you for your time and attention. I would be 
honored to try and answer any questions you may have, Mr. 
Chairman.
    [The prepared statement of Ms. Parke Holleman follows:]
  Prepared Statement of Deirdre Parke Holleman, National Legislative 
               Director, the Retired Enlisted Association
               disclosure of federal grants or contracts
    The Retired Enlisted Association does not currently receive, nor 
has it received during the current fiscal year or either of the two 
previous years any Federal money for grants or contracts. All the 
Association's activities and services are accomplished completely free 
of any Federal funding.
    Mr. Chairman, Senator Akaka and Members of the Committee: It is 
always an honor for The Retired Enlisted Association to testify about 
the needs and concerns of America's veterans and their families and 
survivors.
    The Retired Enlisted Association is a Veterans Service Organization 
founded over 40 years ago to represent the needs and points of view of 
enlisted men and women who have dedicated their careers to serving in 
all the branches of the United States Armed Services active duty, 
National Guard and Reserves, as well as the members who are doing so 
today.
    Today there are hundreds of thousands of enlisted men and women 
serving in war zones and dangerous locations throughout the world. 
While they protect our freedom, we all embrace the duty to make sure 
that when they return they will find all the care and benefits they 
need and were promised. This includes health care and education and 
much more. The Nation also has a sacred duty to provide for the 
survivors of those who will not be coming back. We also have a duty 
never to forget those who protected us in past years and conflicts and 
to make sure that they are properly cared for and treated. It is an 
honor for TREA to be a part of the noble work that Congress, the VA and 
our brother and sister organizations do to make sure that these goals 
are reached.
                             va health care
    As always when appearing before you our first concern is to make 
sure that first rate and adequately funded healthcare is available for 
our Veterans. Last year was a shambles that no one wishes to occur 
again. We are happy and relieved that the Department has requested 
$80.6 billion for its budget for fiscal year 2007. This includes $34.3 
billion for Health care. This is a reasonable and rational number and 
TREA is pleased. However there are calculations and proposed income 
sources that we are opposed to or do not believe will materialize. 
Additionally, there are some programs that we are still concerned will 
not be adequately funded. The GAO report requested by Congress, ``VA 
Health Care: Preliminary Findings on the Department of Veterans Affairs 
Health Care Budget Formulation for Fiscal Years 2005 and 2006'' GAO-06-
43OR February 2, 2006, indicated that the ``VA's internal process for 
formulating the medical programs funding requests were informed by, but 
not driven by projected demand.'' We hope that this Committee will 
carefully oversee the funding levels needed for several crucial 
programs that are likely to see large increases in needs of services. 
These include the 2 year qualification for healthcare that all 
returning veterans from Iraq and Afghanistan are entitled to have at 
the VA as well as the need to increase the number and size of the 
``politrauma centers'' dealing with the large numbers of severely and 
multiple injured veterans who are returning home and looking to the VA 
for hope in their future lives. There are presently 4 of these centers 
but we may very well need more as the War on Terror continues. There is 
also likely to be a substantial increase in the necessity of mental 
health services (both outpatient and in patient) for Veterans returning 
from the War. And for older Veterans there will be growing need for 
nursing home care. TREA is concerned that the budgetary calculations 
have not been sufficiently increased. We hope this Committee will again 
exercise its oversight function to make sure as the next year goes on 
that sufficient funds have been requested and will be obtained. It is 
critical that the VA's healthcare service is fully funded. And that 
that this full funding is predictable so the VA can truly make sensible 
long term plans rather than living from year to year's budget with no 
ability to predict the next several year's finances.
    We are also deeply concerned that a segment of the VA's increased 
health care budget, once again, rests in part on an expectation on 
proposed increases in enrollment fees and prescription drug copayments. 
In the past year the Department raised the copay for drugs from $7 to 
$8. This may not sound like a great deal at first glance but that is 
when you are looking at 1 prescription. Many veterans are not taking 1 
medication a day but 10 or 15. Even a small increase in the copay can 
have a harsh affect on a veteran on a fixed income. But the proposed 
budget calls for a copay of $15. This almost doubles the present copay. 
This proposal could be truly financially crippling to many TREA members 
and we are strongly opposed to it.
    TREA is also firmly opposed to the proposal of a $250 enrollment 
fee. Categories 7 and 8 members would be required to pay the proposed 
enrollment fees while they would have no guarantee that they will be 
served. While those Veterans who are 50 percent or more disabled or are 
being treated for the service connected disability get priority others 
are inevitably pushed to the back of the line. Veterans in Categories 7 
and 8 have no guarantee that they will be seen at all. Additionally 
those that are 50 percent disabled or are being treated for their 
service connected disability have an access standard. They will be seen 
at the VA within 30 days for their primary care appointment or the VA 
will arrange for outside care. But again Category 7 an 8 Veterans have 
no such guarantee. They will be seen when an appointment becomes 
available. So these men and women who served our Country so well are 
not overwhelming the system; they are simply waiting for an appointment 
to become available. It is a space available system for them now. But 
we all know well that if the government starts charging a yearly fee 
for their status there will be a much greater push for the VA to 
provide guaranteed service. And there is no reason to believe at this 
time that it is a service they will be able to provide. Rather than 
lessening the pressure on the VA due to its waiting lists, this 
proposal will in all likelihood increase the pressure and discontent. 
This proposal has been made for the last several years and each time 
Congress has refused to implement it. We hope that you will once again 
take that wise path.
    The VA's proposed budget also includes an expected increase of 3rd 
party insurance collections (OHI). The Department of Veterans Affairs 
predicts that they will collect $3 billion this year. While we can hope 
that this is true none who has watched the VA try to collect civil 
insurance claims in the past has a great deal of faith that they will 
be successful.
    TREA indeed doubts that the VA will be able to reach their goal. 
However it is obvious that the VA enrollees who are most likely to have 
other health insurance are those who are enrolled in Categories 7 and 
8. These are the people who cannot completely rely on the VA for their 
everyday care and will therefore have insurance plans. These are the 
people that the VA could look to for the 3rd party collections. TREA 
knows that the VA, and indeed, some members of this Committee have been 
worried that the VA would be overwhelmed by elderly Veterans looking 
for a pharmacy benefit. The VA predicts that membership in Categories 7 
and 8 will decline by 235,000 this coming year. Clearly they hope that 
the proposed enrollment fee and increased copayments will force many to 
leave. But that is unnecessary. For those 7 and 8 enrollees who are on 
Medicare a new drug benefit has been put into effect since the last 
time TREA testified. While the standup of Medicare Part D has been a 
bit rocky that group of Veterans now have a plan that is not limited to 
the VA formulary. They can use it for prescriptions that their civilian 
doctor has written and they can use it at their local pharmacy or many 
mail order programs. So this previous concern should no longer be as 
worrisome.
    TREA have argued for years that the VA should be able to collect 
from Medicare for non service connected treatments provided to Veterans 
who are enrolled in and pay premiums for Medicare Part B. This would 
put the Department of Veteran Affairs in the same position that Indian 
Health Care Service is in under Title 25 Section 1645. The CBO has 
indicated that about half of all enrolled veterans are also enrolled in 
Medicare. This would be a large and fair income flow to VA health care. 
Obviously, this proposal would not be under your Committee's 
jurisdiction but it is an idea that should be considered.
    TREA urges this Committee to exercise your oversight to make sure 
that VA's crucial healthcare programs continue to be adequately funded 
throughout the budgetary year.
    TREA urges Congress to reject the proposed increases in drug copays 
and the proposed $250 yearly user fee for Categories 7 and 8 enrollees.
    TREA urges the Committee Members to support legislation to allow 
the VA to become a Medicare provider.
             improvements in the montgomery gi bill (mgib)
    One of the most important benefits that this Nation provides to its 
Veterans is the Montgomery GI Bill (MGIB) for both its active duty and 
its National Guard and Reserve members. It serves as a crucial 
recruiting tool and as a way for patriotic, disciplined and intelligent 
men and women to move up in the civilian world. However, with all its 
virtues the MGIB has structural flaws that should be changed. The 
Active Duty MGIB is sensibly under Title 38, Veterans Benefits and 
under this Committee's authority. However, Selected Reserve Programs 
are still under Title 10, the Armed Forces Code. Your many improvements 
to the Montgomery GI Bill have not been reflected in the Selected 
Reserve Program. With the massive call ups of the Guard and Reserve and 
the future outlook that this will not change, it's time to properly 
coordinate the two programs. TREA feels strongly that it is time, for 
the long term good of the program that the SR MGIB should be placed 
under Title 38 and the jurisdiction of this Committee. Needed 
modifications and improvements could then be made in tandem in both 
programs. These include increasing the monetary benefit (as you have 
for the Active Duty plan) and allowing Guard and Reserve members to be 
allowed to continue using their benefits after they leave the Guard and 
Reserves. Since 9/11 the role the Guard and Reserve plays in our 
National Defense has changed dramatically. Additionally, with the 
increased pace of call ups and our increasing reliance on the Guard and 
Reserve (a reliance that TREA doubts will change in the foreseeable 
future) the benefit itself should be readjusted and increased. With 
your focus on the whole program this is the Committee with both the 
focus and the expertise necessary to properly coordinate the two 
programs.
    When looking at the Active Duty program TREA, along with our fellow 
members of the Partnership for Veterans Education, has called for the 
Montgomery GI Bill to cover the average costs of a 4-year education at 
a State University. When hundreds of thousand of members of the 
military are stationed throughout the world fighting the War on Terror 
this would show our gratitude as a Nation and would make a huge 
improvements in these servicemembers' lives when they return home. It 
would also be a wonderful recruitment tool at this difficult time. The 
original GI Bill after World War II transformed the Nation. This change 
would also improve the future for the entire Nation, not just the 
servicemembers and their families who it will directly help. We also 
urge this Committee to broaden the types of education programs that can 
be paid for by the MGIB. This is a new world--this is a new world where 
a great deal of critical higher education is presented in non-four year 
degree programs. These changes would reflect the changes in America's 
changing Education System.
    TREA urges this Committee to attempt to move the SR Montgomery GI 
Bill under its jurisdiction in Title 38.
    TREA urges that the SR MGIB benefit be readjusted to both reflect 
the improvements in the Active Duty MGIB program and to reflect the 
added duties and burdens that are being placed on the Reserve 
Components.
    TREA urges this Committee to move toward having the Active Duty 
Montgomery GI Bill cover the costs of a four (4) year Public University 
education.
                           va claims backlog
    This is a perennial concern and worry. With all the best efforts 
and motives in the world the VA disability claims backlog has not 
improved. According to the Department of Veteran Affairs submission in 
2005 it took 167 days to process a claim as compared to 166 days in 
2004. In 2005 the number of filed claims increased to 788,298 up from 
771,115 in the year before the VA states that they are expecting a 3 
percent increase in filings to 811,947 (with an additional approximate 
100,000 cases resulting from the new outreach program created in the 
fiscal year 06 Appropriation Act). This means that the average case is 
taking almost half a year. Furthermore as the cases become more 
complicated from injuries returning from Iraq and Afghanistan the 
delays may grow even larger. This is just too long. Desperate people 
are anxiously waiting so they can know how they can move on with their 
lives. TREA is sure that all Members of this Committee are extremely 
concerned about this continuing back log. Hopefully, correcting this 
problem will remain a top priority of the VA.
    TREA urges the Committee to closely monitor the Department of 
Veterans Affairs on their efforts to increase both the speed and the 
accuracy of their claim decisions.
        capital asset realignment for enhanced services (cares)
    While there certainly has not been as much public discussion about 
CARES as there has been about BRAC this year, this program is still 
proceeding apace. And it is still a major concern for TREA. We 
certainly agree with the stated goal of CARES to modernize the VA plant 
and make their operations more efficient. However we are still greatly 
concerned that the needs analysis for CARES did not take into account 
the VA's future Mental Health and Long term health care (nursing home 
care) requirements. The Department of Veteran Affairs is obligated to 
provide nursing home care for Veterans with a 70 percent or over 
disability rating or for those Veterans who require Nursing Home care 
due to their service connected disability. We are all aware of the 
Nation's demographics and the growing number of citizens that will need 
Nursing Home care. There is no reason to believe that the Veterans 
population will require less such care than the general population. So 
when planning for CARES this important and predictably growing duty of 
the VA should have been analyzed. The CARES needs analysis also failed 
to consider mental health needs. If anything, 4 years of War has made 
this omission more serious than it was before the War. Of course it is 
a treatment goal of mental health practitioners to have as much care be 
conducted outpatient as possible. However there are times when 
inpatient treatment is clearly necessary. When dealing with Post 
Traumatic Stress Disorder (PDSD) and other war related conditions there 
is no institution that has more experience and skill than the VA. And 
there is no place where Veterans would feel more at home. Before the VA 
takes irreversible steps they should make sure that these future needs 
are factored into the calculation.
    During this dramatic time of War and returning Veterans, it seems 
unwise to dramatically destabilize the plant structure. And it is 
certainly unwise to do so based on a plan that did not take into 
account two of the VA's important and growing missions.
    TREA urges that no additional steps in the CARES process occurs 
until a full study on the future needs of the VA for both long term 
health care and mental health facilities are studied and incorporated 
into any future plans.
                      military retirees and the va
    This Committee knows well that all Military Retirees are Veterans. 
The combination of their military retiree benefits and their Veterans 
benefits make it possible for them to achieve the quality of life they 
deserve in their retirement years. They have served their Nation for at 
least 20 years. Many of these Military Retirees are daily patients in 
the VA Health Care system. It is already true that 30 percent of all 
enrollees in Categories 1-3 (Service Connected Disabilities) are 
Military Retirees. They have been found to have been wounded, injured 
or developed illnesses and conditions while serving their Country. But 
many other retirees have also lived the hard and wearing life of a 
career servicemember. But this health care needs that are caused by 
this life have not been acknowledged by the VA. They deserve and need 
to be able to get the expert care for their service connected 
conditions from the VA while receiving normal healthcare near their 
homes through DOD's healthcare programs. They deserve to be seen as a 
special category of patients. To place retirees in Category 3 would 
acknowledge the lifetime of service they have provided to the military 
and their special medical needs.
    TREA urges Congress to place military retirees into Category 3 of 
the VA Health Care System.
                dod-va collaboration/seamless transition
    Another goal for all of us who are concerned with the well being of 
America's Veterans is to create a seamless transition between the 
status of a member of the military to that of a Veteran. This is 
another area where this Committee's oversight function is critical. We 
need to know whether the much praised VA electronic health record 
program will be able to speak to DOD's new ALHTA electronic health 
record program. We need to know when both Departments will be able to 
create an electronic health care record that all TRICARE and VA health 
care patients can carry with them wherever they are throughout the 
world for their entire lives. We need to know when will DOD and the VA 
be able to stand up throughout the country on a single separation exam? 
This would be a boon to the Veteran, and both the VA and DOD. Years 
have gone by and only partial implementation has occurred. Now is the 
time Congress should insist that the Government improve the hand off 
from DOD to the VA for the future.
    TREA hopes your Committee will continue to monitor the progress in 
this crucial area.
                           survivors benefits
    Everyday in this time of our War on Terror wives, husbands and 
children are becoming survivors. We are presently in the exact 
situation that President Lincoln faced at when he gave the Nation's its 
call: With malice toward none; with charity for all; with firmness in 
the right, as God gives us to see the right, let us strive to finish 
the work we are in; to bind up the nation's wounds, to care for him 
that has borne the battle, his widow and orphan . . .'' from his 
glorious Second Inaugural address. TREA is very grateful to all of 
Congress, and especially this Committee for last year's significant 
improvements in the SGLI coverage. When combined with the new $100,000 
death gratuity passed last year, the families of those ``who gave their 
full measure of devotion'' for this Nation will be able to try to 
restart their lives without the extreme and immediate financial 
difficulties that they had to deal with in the past.
    In the first half of the 109th session of Congress TREA along with 
many of our other Veterans Service and Military Service Organizations 
worked very hard to end the Survivor Benefit Plan Dependency and 
Indemnity Compensation Program (SBP/DIC) Offset. (The program often 
referred to as the widow's concurrent receipt.) And we intend to work 
just as hard again this year. We are well aware that the VA pays the 
full DIC amount to the surviving widow and thus any change to this 
program will have to go through the Committee on Armed Services. But 
this Committee has always shown great interest in Veterans' survivors 
and we hope that you can work with your colleagues to pass Senator Bill 
Nelson's S. 185 and finally end this unfair practice.
    S. 185 would also move up the paid up provisions for SBP (Another 
subject under the jurisdiction of the Armed Service Committee). This 
would help elderly couples who have paid into SBP for at least 30 years 
and whose servicemember is at least 70 years old.
    Both provisions would help survivors who have served our Nation 
faithfully but have not been touched by recent improvements this 
Congress has enacted.
    Additionally we hope that you will all support the concept in the 
House encompassed in Representative Michael Bilirakis's H.R. 1462 and 
allow survivors to retain DIC if they remarry at the age of 55 or 
older. At this time the age for retention of DIC is 57. However the age 
to retain CHAMPVA upon remarriage is the normal Federal program age of 
55. The difference is because the two benefits were reinstated in 
different years and during different Congressional negotiations. There 
are no policy reasons for this awkward and unequal distinction and we 
hope that this year it can finally be corrected.
    TREA urges Congress to finally end the SBP/DIC dollar for dollar 
offset and urges this Committee to support S185 and allow surviving 
spouses to retain their DIC if they remarry after reaching the age of 
55.
                               conclusion
    The members of TREA are grateful for the opportunity to speak about 
the needs and concerns of our members and the needs of all American 
Veterans, their families and survivors. Veterans and their families 
need and deserve all the benefits and services--healthcare, education 
and others--that the VA provides and that you oversee. During this 
critical time for our Nation it is crucial that the VA has the money 
and expertise that is necessary to accomplish its duty. TREA is sure 
that this dedicated Committee will strive to make sure that our 
veterans, whether young or old, and their families are provided that 
they receive the quality care and benefits services that we owe them 
for the dedicated service they have given to their Country.

    Chairman Craig. Thank you very much, Deirdre.
    Now let's turn to Morgan Brown, manager, Military and 
Government Relations, Air Force Sergeants Association.

STATEMENT OF MORGAN D. BROWN, MANAGER, MILITARY AND GOVERNMENT 
                RELATIONS, AIR FORCE SERGEANTS 
                          ASSOCIATION

    Mr. Brown. Good morning, Mr. Chairman, and thank you again 
for the opportunity to appear before this Committee.
    I am honored to represent the leadership of the Air Force 
Sergeants Association and its 130,000 members as you work on 
legislation for this coming fiscal year.
    I would like to begin by letting you know that we sincerely 
appreciate your leadership to overcome last year's health care 
funding shortfalls and in particular increases in SGLI 
coverage. On behalf of the Air Force enlisted community, we 
thank you.
    Having listened to my colleagues and having spoken with 
others who will appear before you, we, too, are concerned about 
some of your primary focus items such as VA health care 
funding, seamless transition efforts, and the accelerated 
adjudication of the claims process. I have covered these and 
other items in my full written statement, and therefore, this 
morning, I will restrict my comments strictly to educational 
benefits, primarily the Montgomery GI bill because of its 
importance to the well-being of noncommissioned members.
    As a member of the Partnership for Veterans Education, AFSA 
supports a restructuring of the Montgomery GI bill, which 
Congress intended to support military recruitment, as well as 
transition. As such, we urge this Committee's support for 
educational enhancements. This includes increasing the amount 
of the benefit to cover the actual cost of a 4-year education 
at a public institution and indexing future increases to 
prevent further reduction of the benefit.
    Currently, the Montgomery GI bill does not keep up with the 
inflation that affects educational programs. According to the 
college board reports, in order to cover the cost of books, 
tuition, and fees at an average State college or university for 
a commuter student, the program should be worth about $1,700 
per month. It is now worth $1,034 per month.
    The fix is to increase the value of the benefit and then 
tie the value of this important program to the college board's 
reports annual cost assessment to reflect educational 
inflationary increases and base it on a nonresident commuter 
student.
    Many of the rules relating to the application of the GI 
bill discourage its use. For instance, young servicemembers are 
given a one-time irrevocable decision to enroll in the 
Montgomery GI bill at basic military training. They are 
automatically enrolled unless they identify themselves to the 
TIs or the DIs and say they don't want the program. At this 
point in their careers, they are making the least pay, and to a 
young enlisted recruit that has a family and other financial 
obligations, expecting them to give $100 out of an $1,100 
monthly paycheck seems unreasonable.
    Other young recruits turn down enrollment because they just 
joined the military, deciding to forego education for the time 
being, and, of course, many of them later regret that decision 
and tell us they would enroll if given the opportunity. 
However, the program, as currently administered, does not offer 
a second chance, not even at a penalty for late enrollment.
    Basic training is a tumultuous time. Young recruits leave 
the familiar and secure environment they are accustomed to and 
are thrust into an intense fast-paced environment as designed 
to ensure they can physically and mentally withstand the rigors 
of military service.
    Considering all the demands of basic training, is it really 
necessary to have these young recruits make this important 
decision during basic training? Keep in mind, it takes 2 years 
of active-duty service to be able to use the basic entitlement. 
Why do we ask them to make this decision in a matter of a day 
or two?
    Our recommendation would be to move the decision out of 
basic training and allow new recruits the ability to enroll in 
the Montgomery GI bill at any point during their first 18 
months of service. Additionally, once enrolled, allow them to 
have the $1,200 payroll deduction spread out over a period of 
18 months. This change alone would greatly improve the program 
without significant additional obligation of funds.
    The primary purpose of the Montgomery GI bill is to help 
servicemembers readjust to civilian life after their separation 
from military service, and therefore, I would be remiss if I 
also didn't mention those currently serving that turned down 
the old Veterans Educational Assistance Program, otherwise 
known as VEAP.
    VEAP was the educational program in place from 1977 to July 
1985. It was poorly counseled and a relatively inadequate 
program. Thousands of military members chose not to enroll in 
VEAP, and many were even advised not to enroll in VEAP because 
a better program was coming along, the current Montgomery GI 
bill. Unfortunately, when that happened, they were not allowed 
to enroll into that program.
    Several years ago, Congress afforded VEAP participants two 
enrollment opportunities, but VEAP decliners were not included. 
Today, less than 50,000 servicemembers in all branches, 
primarily noncommissioned members, are getting ready to end 
their military careers without that transitional education 
benefit. Fairness alone would suggest they deserve a similar 
opportunity to enroll in the GI bill.
    In closing, I ask this Committee to seriously consider 
these items mentioned in my testimony, and again, adjusting the 
initial participation decisionmaking point and extending the 
payroll deduction period would have no or minimal additional 
obligation to the American taxpayer. However, both changes 
would be a large step toward making the Montgomery GI bill a 
more user friendly, sincere, and equitable benefit for the 
noncommissioned men and women serving today.
    Chairman Craig, on behalf of the association and 
noncommissioned members for whom you work so very hard, I thank 
you again for the opportunity to present our views, and I too 
am ready to respond to any questions you may have.
    [The prepared statement of Mr. Brown follows:]
Prepared Statement of Morgan D. Brown, Manager, Military and Government 
               Relations, Air Force Sergeants Association
    Mr. Chairman and distinguished Committee Members, on behalf of the 
130,000 members of the Air Force Sergeants Association, thank you for 
this opportunity to offer the views of our members on the fiscal year 
2007 priorities of the Department of Veterans Affairs. This hearing 
will address issues critical to those serving and who have served our 
Nation. AFSA represents active duty, Guard, Reserve, retired, and 
veteran enlisted Air Force members and their families. Your continuing 
effort toward improving the quality of their lives has made a real 
difference, and our members are grateful. In this statement, I will 
list several specific goals that we hope this committee will pursue for 
fiscal year 2007 on behalf of current and past enlisted members and 
their families. The content of this statement reflects the views of our 
members as they have communicated them to us. As always, we are 
prepared to present more details and to discuss these issues with your 
staffs.
    How a nation fulfills its obligation to those who serve reflects 
its greatness. How we treat them also influences our ability to recruit 
future servicemembers since a significant percentage of those wearing 
the uniform today were once members of military families. They watched 
to see how their moms and dads were treated as they put their lives on 
the line for America. And that trend continues. People observe how the 
servicemember is taken care of during service and after they have 
served. Simply speaking, if we want to keep good people in the 
military, it is important that our country live up to the commitments 
made to our veterans--the role models for today's and tomorrow's force.
    It is important that this committee view America's veterans as a 
vital national resource rather than as a financial burden. As you 
deliberate on the needs of America's veterans, this association is 
gratified to play a role in the process and will work to support your 
decisions as they best serve this Nation's veterans. We believe this 
Nation's response for service should be based on certain principles. We 
urge this committee to consider the following principles as an 
underlying foundation for making decisions affecting this Nation's 
veterans.
                           guiding principles
    1. Veterans Have Earned a Solid Transition Back Into Society. This 
country owes its veterans dignified, transitional, and recovery 
assistance. This help should be provided simply because they served in 
the most lethal of professions.
    2. Most Veterans Are Lower-Paid Enlisted Members. Enlisted veterans 
served with lower pay, generally re-entered the civilian populace with 
non-transferable military skills, probably had relatively little 
civilian education, and most likely served in skills that are less 
marketable. We should factor in the unique circumstances of enlisted 
veterans, especially in the area of transitional education; i.e., the 
Montgomery G.I. Bill.
    3. Decisions on Veterans' Funding Primarily Should be Based on 
Merit. Funding for military veterans must, of course, be based on 
fiscal reality and prudence. However, Congress and, in turn, the VA 
must never make determinations simply because ``the money is just not 
there'' or because there are now ``too many'' veterans. Funding for 
veterans' programs should be viewed as a national obligation--``must 
pay'' situation.
    4. Remember That Reservists Are Full-Fledged Veterans. In Iraq, 
Afghanistan, and around the world, reserve component members are 
valiantly serving, ready to sacrifice their lives if necessary. Record 
numbers have been called up to support operations since September 11, 
2001. By spring of this year, nearly half of U.S. forces serving in 
Iraq will be guardsmen and reservists. Without question, enlisted 
guardsmen and reservists are full-time players as part of the ``Total 
Force.'' Differences between reserve component members and the full-
time force, in terms of VA programs or availability of services, need 
to be critically examined.
    5. The VA Must Openly Assume the Responsibility for Treatment of 
the Maladies of War. We are grateful for VA decisions in recent years 
that show a greater willingness to judge in favor of the servicemember. 
The VA focus on health care conditions caused by battle should be on 
presumption and correction, not on initial refutation, delay, and 
denial. It is important that the decision to send troops into harm's 
way also involves an absolute commitment to care for any healthcare 
condition that may have resulted from that service. Many veterans call 
and write to this association about our government's denial, waffling, 
then reluctant recognition of illnesses caused by conditions during 
past conflicts. We applaud past decisions of this committee toward 
reinforcing a commitment to unconditional care after service, and 
encourage the committee to do the same in the future.
    This statement will focus on three main areas: education, health 
care, and general issues that we hope you will consider as you 
deliberate the fiscal year 2007 VA budget and policies.
                           education programs
    Frankly speaking, this is an enlisted, non commissioned officer 
issue. Unlike commissioned officers, few enlisted members enter the 
service with a college degree. Relatively few of them are able to 
achieve one while in the service.
    Prior to 9/11 this committee did a good job of increasing the value 
of the Montgomery G.I. Bill (MGIB), but very little has been done 
since. There's no escaping the fact that college costs are rising and 
last year the average public school tuition rates jumped 10.5 percent. 
As the gap between the cost of an education and value of the MGIB 
widens, the significance of the benefit becomes less apparent. Without 
an overhaul to reinvigorate the MGIB, this benefit will lose its 
effectiveness when it comes to recruiting this Nation's finest young 
men and women into service. As a member of the Military Coalition and 
Partnership for Veterans' Education, we strongly recommend you 
transform the program to something similar to the post-WW II G.I. Bill. 
We ask this committee to work toward funding a program that pays for 
books, tuition, and fees, and that the benefit be annually indexed to 
reflect the actual costs of education, especially for enlisted members.
    When young enlisted men and women opt for military service, they 
should know that this ``company'' will provide them with a no-cost, 
complete education, as do numerous companies in the private industry. 
But our government does not do this in the way that it should. It gives 
them a one-time chance to enroll in the MGIB during basic training. It 
charges them $1,200 to enroll at a time when they can least afford it. 
It limits the use of the benefit to a designated monthly amount which 
prevents its use for all educational expenses as needed, or in amounts 
to support accelerated programs, or courses with lab requirements, or 
advanced programs; and it imposes a benefit-termination clock that 
starts ticking when the servicemember separates from military duty. 
Each of these provisions suggests the government's lack of sincerity 
toward providing a user-friendly benefit that may be fully used to 
benefit the servicemember and this Nation. Remember, enlisted initially 
make about half that a new commissioned officer makes. Enlisted members 
who actually need the MGIB, must proportionally agree to pay twice the 
portion of their initial pay as commissary officers do. This is just 
plain unfair.
    Despite the extremely commendable, fairly recent value increases in 
the MGIB (which, in October 2005 increased to $1,034 per month for 36 
months), more needs to be done. If this Nation is going to have an 
effective, beneficial military educational benefit program, it should 
mirror the comprehensive ones provided by civilian industry. Recent 
studies show that the average costs for colleges and universities are 
approximately $1,770 per month--a figure that reflects the cost of 
books, tuition, and fees at the average college or university for a 
commuter student (based on the annual ``College Board'' report). That 
means that despite the recent increases in the MGIB, it will only cover 
about 58 percent of the average cost of a 4-year public college or 
university for academic year 2005-2006. As educational costs rise and 
if Congress does not increase funding, the value of the MGIB will 
continue to deteriorate. Without automatic indexing for inflation, MGIB 
purchasing power continues to erode, thereby negating the previous hard 
work of this committee. We ask that you look toward further increases 
in the MGIB program by legally indexing the MGIB benefit to annual 
increases in ``educational'' inflation.
    We are aware of recent interest among some Members of Congress to 
``renovate'' the MGIB. Specific characteristics that a new 
comprehensive benefit should include are as follows:
    Provide an MGIB Enrollment Opportunity for All Currently Serving 
Enlisted Members Who Declined Enrollment in the Old Veterans 
Educational Assistance Program (VEAP). We are mindful that VEAP was 
intended to be a transitional benefit which enabled departing 
servicemembers to secure necessary skills as they transition back into 
the civilian workforce. It's only in more recent years that the MGIB 
has evolved into a recruiting incentive. That being the case, and 
without question, one of the greatest needs cited by our members is to 
provide a second chance for those who turned down their initial 
opportunity to enroll in the Veterans Educational Assistance Program 
(VEAP). VEAP was the program in place for those who were serving 
immediately prior to the July 1985 initiation of the Montgomery G.I. 
Bill. VEAP was a far less beneficial program than the MGIB.
    Hundreds of thousands of military members chose not to enroll in 
the VEAP program. Many were advised not to enroll in VEAP because a 
better program was coming along. Unfortunately, when the MGIB program 
began, those who turned down the VEAP program were not allowed to 
enroll in the MGIB program. So many turned down their one-time 
opportunity (during the 1980's) to enroll in the VEAP program that 
approximately 50,000 military members who declined VEAP enrollment are 
still serving.
    Approximately 15,000 still-serving commissioned officers turned 
down VEAP; by definition they already have at least bachelor's degrees 
when they enter service--most have graduate and higher degrees by the 
time they reach retirement. For that reason, and considering funding 
challenges, AFSA would contend that the MGIB enrollment opportunity 
should be limited to still-serving enlisted (noncommissioned) members 
who turned down the old VEAP program.
    Rep. Dave Camp has introduced H.R. 269 which would provide an MGIB 
enrollment opportunity to the estimated less than 50,000 currently 
serving who turned down the old VEAP program--including commissioned 
officers. In evaluating this same legislation in the 108th Congress, 
CBO scored this bill at $173 million over 10 years (figure based on the 
96,000 plus eligible active duty personnel at that time) Taking into 
consideration that the number of eligibles is now halved, estimated 
costs of implementation would now be in the range of $86 million. 
However, if we limit the enrollment opportunity to enlisted members 
only, it will reduce the number by more approximately one-fourth and, 
therefore, the cost by 25 percent. The projected scoring would then be 
reduced to somewhere in the neighborhood of 65 million over 10 years if 
limited to enlisted members only.
    Time is running out for Congress to provide these deserving 
individuals an MGIB enrollment opportunity; unfortunately many have 
already retired. As of July 1, 2005, all actively serving members who 
enlisted in this era were eligible to retire. We urge these committees 
to act quickly before it is too late to at least provide a transitional 
education assignment to the remaining VEAP-era enlisted members. 
Remember these citizens served a full career of dedicated service and 
sacrifice fighting this Nation's wars and preserving the peace.
    Provide a Second Chance for Those Currently Serving Enlisted 
Members Who Declined Enrollment in the MGIB. Since the end of the VEAP 
program, tens of thousands more have declined enrollment in the MGIB. 
Most enlisted members did so because they were (and still are) given 
only a one-time, irrevocable enrollment opportunity at basic military 
training when many simply could not afford to give up $100 per month 
for the first 12 months of their career. While this may not apply to 
all accessions, it certainly applies to enlisted members.
    In fact, in the Air Force alone, there are now over 25,000 on duty 
who came in during the MGIB era but who declined to enroll in the MGIB. 
Hundreds of noncommissioned members tell us that they want a second 
chance to get into the MGIB, now that they can afford to do so. This is 
particularly a serious problem among enlisted members--those who 
generally enter military service without a college degree and with 
prospects of relatively little income. As we said earlier, thanks to 
the fine work of these committees, the MGIB value has been 
significantly increased in recent years. Although more work needs to be 
done, the benefit is now a comparatively ``lucrative'' benefit--a far 
cry from that which most VEAP and MGIB non-enrollees turned down. For 
that reason alone, fairness would dictate an enrollment opportunity for 
any military member not currently enrolled in the MGIB. They have made 
freedom possible during their service; now let's say ``Thank You'' to 
them! H.R. 3195 by Rep. Peter Visclosky specifically calls for an 
enrollment opportunity for these deserving individuals.
    Eliminate the $1,200 MGIB Enrollment Fee. The Montgomery GI Bill is 
the one of the only company-provided educational programs in America 
that requires a student to pay $1,200 (by payroll deduction during the 
first 12 months of military service) in order to establish eligibility. 
This $1,200 DOD payroll cost-avoidance method amounts to little more 
than a tax penalty on a benefit that must be paid before it is 
received.
    Sadly, this fee causes many young noncommissioned servicemembers to 
decline enrollment simply because they are given a one-time, 
irrevocable decision when they are making the least pay and under the 
pressure of initial training. Those who decline enrollment--many due to 
financial necessity--do not have a second chance to enroll in the 
program. This is probably the biggest complaint we get from the lowest-
ranking airmen. They feel that, in a sense, it is a ``dirty trick'' to 
offer such an important program only when it is clearly a financial 
burden for enlisted members to enroll in the program. After all, 
because of lower pay, enlisted members must sacrifice a significantly 
higher percentage of their income (in relation to new commissioned 
officers) in order to be eligible for the program. Further, it sends a 
very poor message to those who enter service expecting a world-class 
educational benefit.
    We would imagine that a good case could be made to show that 
eliminating the fee will not be as expensive as estimated since the 
administration of the fee (tracking and collection) most likely costs 
nearly as much as, if not more than, the fee itself. To our knowledge, 
this has never been explored, and we encourage these committees to 
investigate this matter further. S. 43, by Sen. Chuck Hagel, and its 
companion bill, H.R. 786, by Rep. Lee Terry, would eliminate the $1,200 
user fee for those serving during the period of Executive Order 13235. 
Both bills would also give a second MGIB enrollment opportunity for 
those serving during this period. AFSA maintains that both elimination 
of the $1,200 payroll reduction and a second MGIB enrollment 
opportunity should be permanently provided for enlisted servicemembers.
    Allow Enlisted Military Members to Enroll in the MGIB Later During 
Their Careers. As I explained above, the one-time enrollment 
opportunity at Basic Training is a problem. Of course, abolishing the 
$1,200 fee would eliminate the non-enrollment problem while 
simultaneously reintroducing some honesty into the recruitment promises 
made concerning educational benefits. This would alleviate the need for 
young recruits to make a monumental financial decision under the 
pressure of Basic Military Training when they are making very little 
money. Another option would be to allow them to enroll at any time 
during their first or subsequent enlistments. In the 108th Congress, 
H.R. 3041, which was introduced by House Veterans Affairs Committee 
Vice Chairman Congressman Michael Bilirakis, would have allowed 
individuals to make an election to participate in the MGIB at any time 
during the first 2 years of service. AFSA would strongly encourage the 
committee to incorporate this legislation as they look to revamp the 
benefit.
    Extend or Eliminate the Ten-Year Benefit Loss Clock. Once an MGIB 
enrollee separates or retires, they have 10 years to use their benefit 
or they lose any unused portion. Transitioning from a military career 
to civilian life requires a period of readjustment and satisfying 
survival needs--especially for enlisted members. These include 
relocation, job and house hunting, and family arrangements, just to 
name a few. For many, using their ``earned'' educational benefit (for 
which they paid $1,200), must be delayed a few years--or their 
education must be pursued piecemeal (e.g., a class at a time) due to 
conflicting work and family obligations. However, the benefit self-
destruct clock is ticking as the government prepares to take the 
benefit away. We urge you to extend that 10-year clock to 20 years, or 
repeal the ``benefit-loss'' provision altogether. The benefit program 
has been earned, the Federal computer program that tracks the MGIB 
usage is not earmarked to go away, and extending the 10-year benefit 
loss clock would have negligible cost implications.
    Provide ``Portability'' (Transferability) of MGIB to Family 
Members. ``Critical skills'' portability for family members was signed 
into law in the fiscal year 2002 NDAA. To date, this powerful retention 
incentive has gone largely unused as only a very small percentage of 
personnel were ever provided this opportunity. Part of the problem is 
the service secretaries get to determine just what ``critical'' means. 
For example, in the Air Force, less than 500 personnel in a dozen 
career fields were provided this opportunity despite the fact that over 
60 career fields were considered critical enough to require Selective 
Reenlistment Bonuses. The vast majority of MGIB enrollees, many of whom 
have been told their jobs are ``critical,'' find it unfair that they 
have not also been afforded this opportunity. As an issue of fairness, 
we urge that the portability feature be extended to all MGIB enrollees.
    Portability would be an important career incentive for the vast 
majority of military members and, if we are wise, a good retention tool 
across the board. For enlisted members, in particular, it could mean 
the ability to offer greater educational opportunities to their 
children. A career-promoting alternative would be to offer the option 
to transfer (at least a portion of) the benefit to family members once 
the individual has served 12 to 15 years. This would make the option 
available in time to help send their kids to college, and it would 
serve as an incentive to stay in the service. Please work to extend the 
``portability'' option across the board to all military enrollees 
(enlisted ones in particular).
                              medical care
    The health care system administered by the Veterans Administration 
impacts, in one way or another, all of those who served. As reported, 
the Administration's fiscal year 2007 budget proposal provides an 8 
percent or $2.65 billion increase in discretionary funding for VA 
health care, which gives Congress a much better starting point in the 
appropriations process than in previous years. AFSA, like most military 
and veterans associations remain concerned that the requested levels of 
funding and the calculations utilized to arrive at these figures may 
not reflect the true needs of this department. We recommend the 
committee scrutinize the Administrations proposals closely so as to 
avoid previous It is critical that those fighting wars today receive 
care when needed, while at the same time, full funding is provided to 
cover past veterans. Recent practice is that in order to keep funding 
down we progressively redefine the categories of eligibility to exclude 
a portion of currently eligible veterans.
    Once again the Administration is proposing to increase prescription 
copayments and create an annual ``enrollment fee'' of $250 for almost 
two million Category 7 and 8 veterans who do not have service-connected 
disabilities. The copayment would jump 88 percent--from $8 to $15--per 
30-day supply, per prescription. AFSA feels these two proposals are 
unacceptable and urges Congress to reject it in similar fashion to last 
year's proposed $250 ``enrollment fee.'' Our feeling is that such an 
enrollment fee should only be applied prospectively. Current veterans 
should not be charged a fee for access which earlier Congresses 
determined was not appropriate. One would have to wonder what the next 
Congress is going to add or eliminate as the policies relative to 
veterans health care change based on the changing economy and personal 
preferences and interpretations. Upon what can veterans depend when it 
comes to national provision of benefits and services?
    The fiscal year 2007 VA Budget should be sufficient to provide full 
health care and program needs for those who are currently defined as 
eligible for care. Funding should not be based on additional 
redefinitions of who is eligible and on a proposed institution of 
additional copayments and enrollment usage fees.
    I wish to briefly touch on some issues that have been reflected in 
the many letters and phone calls that AFSA has received from the field. 
As a general rule, we tend to hear most loudly (and frequently) from 
those who are not happy with the adjudication of their claims or the 
treatment they have received. I am not going to go into isolated 
problems, because anecdotal information is just that. Rather, I want to 
briefly touch on some specific health-related situations/conditions 
that we feel need to be addressed.
    Work Toward Mandatory Funding and Program Permanence. This 
association believes that the parameters of who will be served, what 
care will be provided, the facilities needed, and the full funding to 
accomplish those missions should be stabilized as mandatory 
obligations. If that were so, and Congress did not have to go through 
redefinition drills as economic philosophies change, the strength of 
the economy fluctuates, and the numbers of veterans increases or 
decreases--these committees and this Nation would not have to re-debate 
obligations and funding each year. We believe that these important 
programs should be beyond debate and should fall under mandatory rather 
than discretionary spending.
    Policy Consistency Needed. The pervading feeling among veterans is 
that the Administration's approach to providing adequate service to an 
ever-growing number of veterans is to shrink the number of patients by 
excluding increasing classes of veterans. These veterans who are being 
excluded were expressly included in earlier congressional legislation. 
In other words, rather than funding for increased needs, the VA's 
allowable clientele definition is changed by adding an increasing 
number of ``Priority'' groups, raising copays, and charging fees for 
use. The VA's ``temporary'' moratorium on Priority Group 8 enrollment 
has now assumed a ``permanent'' status.
    Seek Proactive Cost-Saving Approaches. Provisions in the fiscal 
year 2005 budget proposal allowed the VA to pay for emergency room care 
at non-VA facilities. This proactive approach prevented delays in 
treating life-threatening conditions, thereby saving the lives of 
veterans who do not reside in close proximity to a VA medical facility. 
Periodically the VA has agreed to a change in policy and filled 
prescriptions written by non-VA providers under very specific 
circumstances. These are excellent examples of how the VA can enhance 
the care provided to veterans at a modest cost through using new 
approaches!
    Support VA Subvention. With more than 40 percent of veterans 
eligible for Medicare, VA-Medicare subvention is a very promising 
venture, and AFSA offers support for this effort. Under this plan, 
Medicare would reimburse the VA for care the VA provides to non-
disabled Medicare-eligible veterans at VA medical facilities. This 
funding method would, no doubt, enhance some older veterans' access to 
VA health care. The VA has an infra-structural network to handle this, 
and we anticipate the effort would be successful. This is an 
opportunity to ensure that those who served are not lumped in with all 
those who have not, and would, no doubt, save taxpayer dollars by 
potentially reducing an overlap in spending by Medicare and the VA for 
the same services.
    Support Judicious VA-DOD Sharing Arrangements. We believe the 
enlisted force would be pleased with judicious use of VA-DOD sharing 
arrangements involving network inclusion in the DOD health care 
program, especially when it includes consolidating physicals at the 
time of separation. This decision alone represents a good, common sense 
approach that should eliminate problems of inconsistency, saves time, 
and takes care of veterans in a timelier manner. In that sense, such 
initiatives will actually save funding dollars. AFSA supports testing 
such program but recommends that the committee closely monitor the 
collaboration process to ensure these sharing projects actually improve 
access and quality of care for eligible beneficiaries. DOD beneficiary 
participation in VA facilities must never endanger the scope or 
availability of care for traditional VA patients, nor should any VA-DOD 
sharing arrangement jeopardize access and/or treatment of DOD health 
services beneficiaries. VA and DOD each have a lengthy and 
comprehensive history of agreeing to work on such projects but have yet 
to follow-through on most of them. A memorandum of understanding to 
renew their commitment to joint ventures was recently signed by the two 
departments. With this committees urging, perhaps this latest effort 
won't go by the wayside as past ``restarts.''
    Support State Veterans Homes. One hundred and thirty-three state-
run veterans' homes, serve about 30,000 former servicemembers. These 
homes are a good Federal investment since the states provide funding 
for two-thirds of total operating costs. Funding reductions in this 
area could be devastating and would force the closure of several 
facilities. We urge the committees to take a close look at the required 
level of support to protect these important national assets. We urge 
these committees to provide full funding for state veterans homes--
building on levels established in the past with inflation factored in. 
If changes are to be made in the future, they should be announced for 
future implementation and should be applied prospectively without 
harming those who have come to depend on these facilities.
    Care for Women Veterans. We applaud the actions of these committees 
in recent years to directly address the issue of the unique health 
challenges faced by women veterans. Between 1990 and 2000, the women 
veteran population increased by 33.3 percent from 1.2 million to 1.6 
million, and women now represent approximately 7 percent of the total 
veteran population. By the year 2010, the VA estimates that women 
veterans will comprise well over 10 percent of the veteran population. 
Currently women make up 15 percent of the active duty force and 
approximately 23 percent of the Reserve force. Many of these female 
veterans have served in more recent years. Tens of thousands of female 
troops have been serving, or have already returned from service in Iraq 
and Afghanistan. As the number of women veterans increases, the VA must 
be funded to increasingly provide the resources and legal authority to 
care for female-specific healthcare needs.
                             general issues
    Speedier Claims Processing and Improved Accuracy. For many veterans 
association with the VA begins with the claims process. Two years ago, 
the Veterans Benefit Administration announced they had reached a steady 
state of 250,000 claims in progress but recent numbers reflect a number 
three times that. Not mentioned in the Administrations fiscal year 2007 
budget plan was how this agency intends to address a claims backlog 
that currently exceeds more than 800,000 cases!
    The key to sustained improvements in claims processing rests 
primarily on adequate funding to attract and retain a high-quality 
workforce of claims workers who are supported by full investment in 
information management and technology. This agency is facing a mass 
exodus of experience once the baby-boomer generation retires from 
Federal service over the next 5 years. It's becoming more and more 
apparent that this particular section of the agency needs additional 
funding consideration verses funding reductions to overcome this 
growing backlog. Additionally, proper training impacts the quality and 
consistency of claims decisions. An infusion of funding specifically 
for this purpose could save the agency millions, if not more as errors 
in processing claims and the subsequent appeals they generate are 
reduced. Much of the past success of this agency can be directly 
attributed to the funding and support of this committee. The time to 
take a closer look is long overdue.
    ``Seamless,'' Transferable Medical Records. The record numbers of 
veterans being generated by the wars in Afghanistan and Iraq underscore 
the importance of accelerating DOD and VA plans to seamlessly transfer 
medical information and records between the two Federal departments. A 
lifetime DOD-VA service medical record could help veterans obtain 
early, accurate, and fair VA disability ratings, save the Department of 
Veterans Affairs funding, and facilitate pre- and post-deployment 
research that could advance standards of care. Additional savings would 
be realized by preventing the ``doubling'' of diagnostic testing which 
currently occurs when VA runs similar testing (MRIs/X-rays, etc) to 
validate DOD findings. Common sense and cross flow of information 
between the DOD and VA systems could save taxpayers a great deal of 
money. With thousands of servicemembers retiring each year, this amount 
could easily total several billion dollars. Accepting service connected 
diagnosis's made by DOD providers and their accompanying documentation 
would help resolve another problem that plagues VA by freeing up 
thousands of doctors and specialists thereby reducing the wait list 
times for specialized care. According to recent VA statistics about 
50,000 veterans can presently be expected to wait more than 6 months 
for care its increases in demand and expected changes in the intensity 
of service delivery.
    At an Oversight and Investigations Subcommittee hearing in November 
2003, it was pointed out that the technology already exists to 
accomplish the goal of a seamless record. We urge this committee to 
assume an oversight role and facilitate implementation of this 
important document as quickly as possible.
    Legitimate, Sincere Veterans' Preference. In recent years, Congress 
has taken steps toward making ``Veterans' Preference'' a reality. We 
have seen commendable moves in this Administration involving the VA and 
the Department of Labor to enhance the job preferences available to 
veterans. We continue to urge these committees to support any 
improvement that will put ``teeth'' into such programs so that those 
who have served have a ``leg up'' when transitioning back into the 
civilian workforce.
    Support of Survivors. AFSA commends this committee for previous 
legislation which allowed retention of DIC, burial entitlements, and VA 
home loan eligibility for surviving spouses who remarry after age 57. 
However, we strongly recommend the age 57 DIC remarriage provision be 
reduced to age 55 to make it consistent with all other Federal survivor 
benefit programs. H.R. 1462 introduced by Rep. Bilirakis would make 
this important change in law. We also endorse the view that surviving 
spouses with military Survivor Benefit Plan (SBP) annuities should be 
able to concurrently receive earned SBP benefits and DIC payments 
related to their sponsor's service-connected death. We regret that the 
109th Congress felt it was unable to address this issue as it finalized 
the fiscal year 2006 National Defense Authorization Act.
    Protect VA Disability Compensation. Despite being clearly stated in 
law, veterans' disability compensation has become easy prey for former 
spouses and lawyers seeking money. This, despite the fact the law 
states that veterans' benefits ``shall not be liable to attachment, 
levy, or seizure by or under any legal or equitable process, whatever, 
either before or after receipt by the beneficiary.'' Additional 
legislation is needed to enforce the probation against court-orders or 
state legislation that would award VA disability dollars to third 
parties in divorce settlements.
    Provide a Written Guarantee. Many veterans are frustrated and 
disappointed because existing programs they thought they could depend 
on have been altered or eliminated due to changing budget philosophies. 
That creates a perception among servicemembers and veterans that the 
covenant between the Nation and the military member is one-sided, with 
the military member/veteran always honoring his/her obligation, and 
hoping that the government does not change the law or the benefits upon 
which they depend. We urge this committee to support a guarantee in 
writing of benefits to which veterans are legally entitled by virtue of 
their service. This would demonstrate that the government is prepared 
to be honest and consistent with its obligation to its servicemembers.
    Veterans Disability Benefits Commission. AFSA remains concerned 
about the intent of the Veterans Disability Benefits Commission set up 
as part of recent years' concurrent receipt legislation. We are 
encouraged that various military and veterans' associations and 
individual veterans have had the opportunity to provide input into the 
panel's deliberations and hope that trend continues. Congress recently 
granted the panel an extension that carries its reporting date into the 
latter part of 2007. Until then, and understanding the budgetary 
constraints faced by this committee, we simply ask that the following 
items be included in deliberations on the impact of future decisions as 
they will apply to current veterans.
    Obviously, budgetary parameters/limitations must be set by sound 
fiscal decisions. However, one dynamic of changing the definition of 
those who are to be served by the Department of Veterans Affairs in the 
future is that these decisions can have a life-altering affect on 
current veterans and their families. Many have already made decisions 
to purchase housing near a VA facility and have made other financial 
and life-altering decisions based on earlier decisions and philosophies 
of governmental decisionmakers.
    Whereas this committee has made ``access'' decisions in the past 
(as to who would be eligible for full access to VA programs) based on 
the urging of veterans groups, the voters, their fellow Members of 
Congress, or simply fiscal restraints, the ultimate decisions was made 
by Congress. As such, once the congressional decisions are signed into 
law, it is understandable that veterans would have a reasonable 
expectation that the VA programs available today will be available on 
the same terms in the future. Accordingly, these veterans make/made 
life-affecting decisions based on their faith and trust in the United 
States government.
    It is also understandable that significantly redefining the system, 
adding user fees, significantly increasing costs for certain categories 
of veterans who are already using the system, etc., lead to further 
mistrust, frustration, and in some cases significant financial 
hardship. In that sense, this association urges that future funding 
decisions and the implementation of the decisions of the blue ribbon 
panel be applied prospectively. That is, current veterans should not be 
significantly affected by the periodic and aperiodic changing decisions 
of governmental bodies; citizens ought to be able to depend on standing 
governmental decisions.
    As the government changes its decisions from Congress to Congress, 
because the economy changes or there are now too many veterans, we 
would hope that the members of the applicable committees will consider 
the impact on current veterans and set timetables or effective dates 
for future applications of its decisions. For that reason, we cannot 
endorse annual user fees and significantly increased pharmaceutical 
costs for certain categories of veterans--except prospectively. That 
is, these congressional decisions should most properly apply to new 
veterans entering the system. While this may seem unfair to new 
veterans, we believe that is the way the law generally and properly has 
been applied for changes to the military retirement system and other 
major benefit reductions--the changed laws were applied in such a way 
that they would not negatively affect the financial and family security 
of those to which the current law applies.
    Mr. Chairman, in conclusion, I want to thank you again for this 
opportunity to express the views of our members on these important 
issues as you consider the fiscal year 2007 budget. We realize that 
those charged as caretakers of the taxpayers' money must budget wisely 
and make decisions based on many factors. As tax dollars dwindle, the 
degree of difficulty deciding what can be addressed, and what cannot, 
grows significantly. However, AFSA contends that it is of paramount 
importance for a nation to provide quality health care and top-notch 
benefits in exchange for the devotion, sacrifice, and service of 
military members, particularly while the Nation remains at war. So too, 
must those making the decisions take into consideration the decisions 
of the past, the trust of those who are impacted, and the negative 
consequences upon those who have based their trust in our government. 
We sincerely believe that the work done by this committee is among the 
most important on the Hill. On behalf of all AFSA members, we 
appreciate your efforts and, as always, are ready to support you in 
matters of mutual concern.

    Chairman Craig. Morgan, thank you very much, and I 
appreciate your focusing on the Montgomery GI bill. You make 
some very solid proposals. Thank you.
    Now, let me turn to Colonel Robert Norton who is retired, 
and currently the deputy director of Government Relations, 
Military Officers Association of America.
    Robert.

STATEMENT OF COLONEL ROBERT F. NORTON (RET.), U.S. ARMY; DEPUTY 
 DIRECTOR, GOVERNMENT RELATIONS, MILITARY OFFICERS ASSOCIATION


    Mr. Norton. Thank you, Mr. Chairman. Good morning.
    I am pleased to have this opportunity to appear before you 
today on behalf of the 360,000 members of the Military Officers 
Association.
    At the beginning, Mr. Chairman, I want to echo, as my 
colleagues did, our great appreciation to you, to Senator 
Akaka, and to the Committee for setting a new standard for 
engaging veterans' issues in this Committee. We greatly 
appreciate it. We also want to thank you for the work that the 
Senate in particular did last year on the traumatic injury 
insurance rider to SGLI and on raising SGLI coverage levels. 
These are very important benefits to our wounded servicemembers 
and their families, and it is a great show of the support of 
Congress to these great young Americans.
    MOAA is pleased to see a significant increase in the 
medical services budget in the VA for fiscal year 2007. This is 
an important first step in matching resources to the rising 
demand for care.
    We continue to support the President's task force 
recommendation that the VA health care system should be fully 
funded either by mandatory means or by any other means that 
will accomplish that objective.
    MOAA is opposed to the $250 user tax for certain enrolled 
veterans. Instead, to avoid another VA medical budget 
shortfall, we recommend a $795 million increase to the VA 
health care budget.
    Less than 1 percent of the American population is fighting 
to protect the Nation in the War on Terror, and those who have 
served should not have to pay for their access to VA care.
    MOAA recommends that the Committee and Congress continue to 
press VA and the Department of Defense to speed up seamless 
transition initiatives.
    When Army Captain Mark Giammatteo returned home from Iraq 
with serious wounds to his right leg, he underwent 30 surgeries 
at Walter Reed. On convalescent leave, he had problems with his 
surgery and attempted to check into the local VA facility. 
There, he was turned away. VA officials said they couldn't 
treat him because he was on active duty. Captain Giammatteo's 
story illustrates the personal dimension of the importance of 
getting seamless transition right, and our statement goes into 
greater detail on the recommendations we feel need to be 
pressed in terms of seamless transition.
    Advances in medical treatment and casualty management have 
raised the survival rates for our wounded warriors to 
unprecedented levels, what the medical folks call the ``golden 
hour.'' MOAA leadership has seen firsthand the need for 
polytrauma center upgrade and expansion. The need is not 
adequately addressed, however, in the budget request. MOAA 
strongly urges the Committee to restore the proposed $627 
million cut in VA health care construction and to increase 
medical research funding to $460 million.
    Turning now to benefits, MOAA strongly recommends the 
Committee endorse needed increases in full-time-equivalent 
positions, training, and technology upgrades, so that the long 
and costly delays in processing disability claims can be fixed.
    I want to thank you, Mr. Chairman and Senator Akaka and the 
Committee, for holding a hearing on the 2nd of February 
concerning the 15 percent unemployment rate among young 
veterans. MOAA believes that stronger transition assistance 
programs are an important tool to help attack this problem, and 
we recommend that the Committee support expanding and tailoring 
TAP services for all of our veterans, including the Guard and 
Reserve.
    Another issue related to potential veteran unemployment is 
the Montgomery GI bill. National Guard and Reserve servicemen 
and women who have been mobilized earn Montgomery GI bill 
benefits during their active-duty service under chapter 1607 of 
title 10. However, when they complete their Reserve contracts, 
they forfeit those benefits, and they don't get an opportunity 
to use them to gain the skills and education they need to be 
competitive in the workforce and to avoid unemployment.
    Let me illustrate. According to the Defense Department, 
there are 579 citizen soldiers from Idaho currently on active 
duty from units in Boise, Gowen Field, Lewiston, and Pocatello. 
These great young Americans are serving in the War on Terror, 
defending the rest of us. They earn Montgomery GI bill benefits 
which range from about $15,000 to $29,600, depending on the 
length of their call-up. When they return home to Lewiston and 
Pocatello and someday complete their service commitment, they 
must forfeit every penny of those benefits unless they stay in 
the Guard and Reserve. That is not right, Mr. Chairman, and it 
must be fixed.
    Along with my colleagues, we recommend that the Montgomery 
GI bill be restructured so that a basic principle is 
underwritten, namely that service in the Armed Forces should be 
matched by appropriate benefits, including the Montgomery GI 
bill. So we also recommend that the title 10 Reserve programs 
be transferred to Title 38 and that a readjustment benefit be 
authorized for men and women who serve on active duty from the 
Guard and Reserve, so that they can take their benefits with 
them when they complete their service, avoid unemployment, and 
enable this great Nation of ours to be competitive in the 
marketplace.
    Thank you again, Mr. Chairman, for this opportunity to 
testify, and I look forward to your questions.
    [The prepared statement of Mr. Norton follows:]
   Prepared Statement of Colonel Robert F. Norton (Ret.), U.S. Army; 
  Deputy Director, Government Relations, Military Officers Association
    Mr. Chairman and distinguished Members of the Committee, on behalf 
of the 360,000 members of the Military Officers Association of America 
(MOAA), I am honored to have this opportunity to present the 
Association's legislative agenda for veterans health care and benefits 
programs.
    MOAA does not receive any grants or contracts from the Federal 
Government.
                          veterans health care
Health Funding Overview
    MOAA is grateful to Congress for addressing a woefully inadequate 
VA health care budget for the past (fiscal year 2005) and current 
fiscal year, fiscal year 2006. Since 9/11, we have been particularly 
concerned that VA demand projections have not properly accounted for 
the increased number of veterans from the Iraq and Afghanistan 
conflicts (OIF/OEF). In accordance with VA's 2-year ``open door'' 
policy, more than 525,000 Guard and Reserve veterans are now eligible 
for VA care, in addition to the active duty veteran population. VA data 
show that greater numbers of active duty veterans than Guard/Reserve 
veterans are enrolled in the VA, but Guard-Reserve usage is higher. The 
GAO recently confirmed that the VA's demand model is inadequate for 
estimating projected costs for the VA health care system.
    MOAA fully supports reforming the VA's enrollment projection model 
used to justify the VA health care budget and strongly endorses the 
President's Task Force recommendation that the VA health care system 
should be fully funded by mandatory spending or by some other means 
that will ensure the full-funding objective is met.
    The fiscal year 2007 VA Medical Care Budget includes $31.5 billion 
in discretionary appropriations and $2.8 billion in increased 
collections for a total of $34.3 billion for VA medical care. The 
budget request recognizes the need to provide timely care to those who 
have served the Nation in uniform and is in range of the budget 
estimate set forth in the Veterans Independent Budget for fiscal year 
2007, which MOAA endorses. Included in the spending plan is an 
estimated $795 million in collections that would come directly out of 
veterans' pockets, not the Federal treasury.
    MOAA recommends that Congress provide $33 billion for veterans' 
health care, an increase of $4.2 billion over the fiscal year 2006 
appropriation, and approximately $1.5 billion over the administration's 
fiscal year 2007 budget request, without collections.
Usage Fees and Drug Copays
    MOAA is surprised and disappointed to note that after twice being 
rejected by Congress, the Administration is again seeking enactment of 
a $250 usage fee for 2.3 million Priority Group 7 & 8 enrolled 
veterans.
    The Administration is also reviving its proposal to increase 
pharmacy copayments from $8 to $15 for these veterans. The fees would 
generate revenue of $251 million in fiscal year 2007.
    What's wrong with this picture? First, under the VA's 2-year open 
door policy for OIF / veterans, many thousands of veterans are 
completing their ``trial'' enrollment and, if they have not been 
determined to have a service-connected disability, are being assigned 
to PG-7 or 8 depending on income levels. We must ask if it is right 
that a Nation that sent these veterans into harm's way in the War on 
Terror should now charge them a fee for their VA care? Second, the 
proposals fail to consider the lost revenue from PG 7 and 8 veterans 
who may have other health insurance (OHI).
    Third, attempts to correlate the fees with TRICARE Prime fees are 
fallacious: the VA is not a health insurance system with managed care 
standards. TRICARE Prime is a managed care (HMO) component of the 
military health system. TRICARE Prime fees are optional for those who 
choose this coverage over TRICARE Standard. Participants pay modest 
annual fees in order to obtain assured access to TRICARE providers 
under established access standards. The fees the Administration seeks 
bring no reciprocal benefit in terms of access to care in a timely 
manner. Their only purpose is to depress demand and save money by 
driving veterans away.
    MOAA is opposed to VA usage fees and higher drug copays. During 
this long and difficult war on terror, Congress would send the wrong 
signal to the Nation's warriors and future veterans by endorsing usage 
fees for VA health care.
Medical and Prosthetic Research
    The budget request shows a $17 million increase in the research 
budget above the 2006 level. Additionally, the VA indicates that OIF/
OEF research is a high priority and special research is being done 
concerning PTSD, traumatic brain injury, prostheses and injuries 
associated with blast injuries. However, we are concerned that the $17M 
increase appears to be due only to funds from other Federal and non-
Federal resources that may or may not actually be available.
    MOAA strongly urges Congress to ensure a funding level of $460 
million for medical research--including traumatic brain injury, spinal 
cord injury, prosthetic devices, and burn therapies.
Polytrauma Centers Funding
    Advances in medical treatment and casualty management during the 
``golden hour'' have raised the survival rates for our wounded warriors 
to unprecedented levels. But, unfortunately, the injuries often are 
much more severe and may involve multiple systems intervention and 
rehabilitation in highly advanced polytrauma centers. The VA has four 
such polytrauma centers throughout the United States and the DOD is 
planning to establish three more. Senior MOAA leaders have been 
privileged to visit some of these facilities. We have seen first hand 
the need for facility modification and expansion in order to keep up 
with demand and enable the most efficient use of modern technology. But 
the need is not adequately addressed in the budget request, which 
proposes a $627 million cut in minor and major construction dollars.
    MOAA strongly urges the Committee to reverse the $627 million cut 
in construction allocations and restore construction funding required 
for needed upgrades to VA polytrauma centers and for other critical 
construction needs.
Seamless Transition Road Map
    MOAA appreciates the leadership of the Committee in keeping up the 
pressure on the VA and DOD to accelerate accomplishment of ``seamless 
transition'' policies, procedures, and supporting objectives for our 
Nation's service men and women and their families.
    What is seamless transition? In its 2003 report, the President's 
Task Force on DOD-VA health care collaboration outlined the following 
objectives:
    <bullet> Single separation physical: ``The Departments [of Defense 
and Veterans Affairs] should implement by fiscal year 2005 a mandatory 
single separation physical as a prerequisite of promptly completing the 
military separation process.''
    <bullet> Electronic Medical records: ``VA and DOD should develop 
and deploy by fiscal year 2005 electronic medical records that are 
interoperable, bi-directional, and standards based.''
    <bullet> Privacy: ``The Administration should direct the Department 
of Health and Human Services (HHS) to declare the two Departments to be 
a single health care system for the purposes of implementing HIPAA 
regulations.''
    <bullet> Occupational and Hazard Exposure Data: ``VA and DOD should 
expand their collaboration in order to identify, collect, and maintain 
the specific data needed by both Departments to recognize, treat, and 
prevent illness and injury resulting from occupational exposures and 
hazards experienced while serving in the Armed Forces; and to conduct 
epidemiological studies to understand the consequences of such 
events.''
    <bullet> Joint Health Surveillance and Reporting: ``The Departments 
[of Defense and Veterans Affairs] should: (1) add an ex officio member 
from VA to the Armed Forces Epidemiological Board and to the DOD Safety 
and Occupational Health Committee; (2) implement continuous health 
surveillance and research programs to identify the long-term health 
consequences of military service in high-risk occupations, settings, or 
events; and (3) jointly issue and annual report on Force Health 
Protection, and make it available to the public.''
    The record of accomplishment on these goals is mixed, though there 
is some progress. We offer the following observations on policy, 
procedures, and technologies supporting seamless transition objectives:
    <bullet> Transparency in oversight and policy coordination. MOAA 
commends Congress for enacting legislation that established a formal 
coordination process between the Departments of Defense and Veterans 
Affairs. The DOD-VA Joint Executive Council (JEC) and its subordinate 
Benefits Executive Council (BEC) and Health Care Executive Council 
(HEC) have the potential to spearhead greater progress on seamless 
transition initiatives.
    MOAA recommends greater transparency and oversight of the DOD-VA 
Joint Executive Council activities.
    <bullet> Electronic Medical Records. The VA has fielded a standard-
setting electronic medical records system for its hospital facilities 
and outpatient clinic networks. Known as VISTA, the VA system has 
received high marks in the medical community and is being adopted by a 
growing number of civilian provider networks. DOD is now fielding a 
military electronic medical records system called AHLTA. AHLTA is 
expected to be on line this year. The question, however, is whether 
VISTA and AHLTA can ``talk to each other.''
    MOAA continues to strongly urge accelerated development of bi-
directional, interoperable standards-based electronic medical records 
between DOD and the VA.
    <bullet> Medical Evaluation Board (MEB)/Physical Evaluation Board 
(PEB).
    MEBs are conducted to determine suitability for continued service 
following an injury, wound, or illness. MEBs follow a ``period of 
observation'' or ``time to heal'' for ill or injured service men and 
women. MEBs average 121 days, but can vary considerably depending on 
the medical condition and healing process. For example, Army MEBs 
currently take 67 days to complete. The PEB is charged with making 
personnel decisions based on the input from the MEB. DOD requires a PEB 
in peacetime to be completed within 40 days following an MEB. The 
average PEB completion time since OIF and OEF is 87-280 days. Taken 
together, the convalescence, MEB and PEB processes appear to average 
between nine and fifteen and a half months for Army soldiers.
    MOAA has recommended that the Veterans Disability Benefits 
Commission evaluate MEB-PEB policy and procedures to ensure fair 
treatment among the Services including members of the Guard and 
Reserve.
    <bullet> Single Separation Physical. MOAA remains concerned about 
known gaps in implementing a single separation physical. Some time ago, 
DOD and VA announced an agreement on a single separation physical 
protocol. Yet, at key medical treatment facilities like the Walter Reed 
Army Medical Center and the National Naval Medical Center neither 
facility has implemented a single, systematic process for a separation 
physical under a joint DOD-VA protocol. That being the case at the Army 
and Navy's premier medical facilities, it's unlikely that a single 
separation physical has been implemented elsewhere.
    MOAA continues to urges support for accelerated development of a 
single separation physical.
    <bullet> Seriously Wounded Transition Program. DOD and VA have made 
commendable progress in coordinating services for injured and ill 
servicemembers. DOD has established a joint center to oversee care and 
services for injured and ill OIF and OEF servicemembers. The VA has 
assigned caseworkers to major military medical facilities that are 
providing care and rehabilitation services to severely injured or ill 
troops. Last year, the GAO recommended improving information sharing 
between DOD and VA on seriously injured service men and women 
(Vocational Rehabilitation; More VA and DOD Collaboration Needed to 
Expedite Services for Seriously Injured Service Members (January 2005).
    MOAA recommends continued emphasis on improving the coordination of 
care and information sharing between DOD-VA for seriously wounded 
servicemembers.
Expansion of Mental Health Services
    Recent studies project that 1 out of 6 servicemembers returning 
from Iraq and Afghanistan will need care for PTSD and other mental 
health conditions. The budget request increases funding for mental 
health services from $2.8 billion to $3.2 billion. We are pleased that 
the VHA Mental Health Strategic Plan Workgroup is developing a 5-year 
strategic plan to eliminate deficiencies and gaps in the availability 
and adequacy of mental health services.
Retired Military Veterans Access to Earned DOD-VA Health Care Benefits
    Veterans who complete a full career in the Armed Forces earn 
lifetime entitlement to health care benefits in the Department of 
Defense TRICARE system, and eligibility for VA health care services.
    <bullet> About one out of eight enrolled veterans is a dual-
eligible veteran.
    <bullet> One out of ten users (``unique patients'') of VA care is a 
dual-eligible veteran.
    <bullet> Enrollment of military retired veterans has increased by a 
little over one-third since June 2000 when VA began tracking the data 
(600,870 retired veteran enrollees to 970,549 as of Sept. 2005).
[GRAPHIC] [TIFF OMITTED] 28132.001

    The more severe a disability, the more likely it is that a veteran 
would seek VA care:
    <bullet> 77 percent of dual-eligibles with disabilities rated at 50 
percent or greater (PG-1) used VA care last year.
    <bullet> 54 percent of dual-eligibles with disabilities rated 40-50 
percent (PG-2) used VA care last year down.
    <bullet> 44 percent of dual-eligibles with disabilities rated 10-30 
percent (PG-3) used VA care last year down.
    <bullet> By contrast, only 26 percent of PG-8 retired veterans used 
VA care last year down from 29 percent in 2004.
    In 2005, 53 percent of enrolled military retired veterans used VA 
health care in some way.
    Because many enrolled retired veterans have serious disabilities, 
it is imperative that they have assured access to the VA's spectrum of 
health care services including its well-regarded specialty care 
capabilities.
    As we have noted in past testimony, military retired veterans often 
prefer to obtain their routine health care locally from the TRICARE 
network, but are willing to travel some distance to have access to VA 
specialty care services.
    MOAA appreciates Congress' continued support in opposing ``forced 
choice'' proposals that would compel dual-eligible veterans to 
relinquish access to earned DOD or VA health care services.
Capital Assets for Enhanced Services (CARES)
    MOAA and other military and veterans organizations have noted that 
the CARES planning process does not include planning for mental health 
services and long-term care. MOAA continues to urge inclusion of mental 
health care and long term care services in ongoing facilities decisions 
resulting from the CARES process.
                           veterans benefits
    Overview. The 2007 VA Budget Request includes $42.1 billion for 
entitlement costs associated with benefits administered by the Veterans 
Benefits Administration (VBA). The total includes an additional $4 
billion for disability compensation for veterans and their survivors 
for disabilities or diseases incurred or aggravated in military 
service.
Disability Claims: Quality and Process Improvements Needed
    The workload and complexity of VA disability claims continues to 
increase. The VA projects over 900,000 claims this year. The estimate 
includes almost 100,000 claims from ``special outreach'' programs 
mandated by Congress last year. Disability claims processing time rose 
to 167 days on average in 2005. The VA's performance goal for claims 
processing is 100 days. In addition to increased workload, a continuing 
challenge is replacing retiring claims workers with highly trained 
individuals and providing them with the tools, policies and procedures 
to improve the quality and timeliness of production. The VA ``tiger 
team'' model, which is used to adjudicate claims of WWII and other 
older veterans, should be used throughout the system. Additional 
investment in training, full time positions, and technology also will 
be needed to reach sustainable quality and timeliness goals.
    MOAA continues to urge additional claims-workers, technology 
upgrades, and training to reach and sustain the VA's original strategic 
performance goal of 100 days on average per VA claim.
    Seamless Transition--TAP/DTAP Programs and Related Issues. MOAA 
appreciates that this Committee held a hearing on 2 February 2006 to 
examine the issue of rising unemployment among veterans recently 
separated from military service. The rate of unemployment among 
veterans aged 20-24 is 15 percent, almost double that for non-veterans 
(8 percent unemployment). Since 2001 the active Armed Forces have 
separated an average of 200,000 service men and women each year. In 
addition, the call-up of more than 525,000 Guard and Reserve service 
men and women since 9/11 has increased the demand on transition 
assistance programs (TAP). MOAA believes there is a link between strong 
military TAP programs and the goal of reducing unemployment among young 
veterans.
    A GAO report issued last year stated that TAP resources have been 
``flat since fiscal year 1995'' and that DOD's budget has not taken 
into account the needs of separating veterans from the National Guard 
and Reserve.
    MOAA recommends that the Committee support policy and funding 
initiatives to:
    <bullet> Enable TAP services to be delivered in local communities 
for separating Guard and Reserve veterans.
    <bullet> Expand VA outreach to provide ``benefits delivery at 
discharge'' services in local settings convenient to de-mobilizing 
Guard and Reserve veterans.
    MOAA urges the Committee to support seamless transition initiatives 
that underwrite TAP/DTAP programs in order to reduce the potential of 
unemployment and homelessness among veterans of the war on terror.
Total Force Montgomery GI Bill
    Congress intended that the all-volunteer force Montgomery GI Bill 
would support DOD recruitment and retention programs, enable a smoother 
readjustment to civilian life, and enhance the Nation's 
competitiveness.
    But these goals are not being fully realized especially for 
mobilized members of the National Guard and Reserve forces. Ongoing 
challenges include:
    <bullet> Delayed implementation of MGIB benefits for mobilized 
reservists authorized under Chapter 1607 of Title 10 USC. Only a 
handful of educational benefits claims have been processed--and these, 
manually--for the more than 525,000 Guard and Reserve troops who have 
served on active duty under contingency operation orders since 9/11.
    <bullet> Lack of a readjustment benefit for mobilized reservists. 
After serving the Nation on active duty in the war on terror and 
successfully completing a Guard or reserve service commitment, 
reservists are not authorized any readjustment benefit. They must leave 
behind remaining MGIB benefits upon separation unless the separation is 
for disability.
    <bullet> Benefit disparities. For the first 15 years of the MGIB, 
benefits earned by individuals who initially joined the Guard or 
Reserve paid 47 cents to the dollar for active duty MGIB participants. 
Since 9/11, however, the ratio has dropped to 29 cents to the dollar.
    <bullet> Administrative difficulties. DOD and VA officials report 
enormous challenges in de-conflicting and coordinating the oversight 
and management of MGIB programs. Policy and procedural challenges are 
compounded by outmoded information management and information 
technology support for the MGIB.
The Total Force MGIB for the 21st Century
    The Total Force MGIB has two broad concepts. First, all active duty 
and reserve MGIB programs would be organized under Title 38. (The 
responsibility for cash bonuses, MGIB ``kickers'', and other 
enlistment/re-enlistment incentives would remain with the Department of 
Defense under Title 10). Second, MGIB benefit levels would be 
structured according to the level of military service performed.
    The Total Force MGIB would restructure MGIB benefit rates as 
follows:
    <bullet> Tier one--Chapter 30, Title 38--no change. Individuals who 
enter the active Armed Forces would earn MGIB entitlement unless they 
decline enrollment.
    <bullet> Tier two--Chapter 1606, Title 10: MGIB benefits for 
initial entry into the Guard or Reserve. Chapter 1606 would transfer to 
Title 38. No other change is envisioned at this time. In the future, 
the Committee should consider adjusting benefit rates in proportion to 
the active duty program. Historically, Selected Reserve benefits have 
been 47-48 percent of active duty benefits.
    <bullet> Tier three--Chapter 1607, Title 10, amended--MGIB benefits 
for mobilized members of the Guard / Reserve on ``contingency 
operation'' orders. Chapter 1607 would transfer to Title 38 and be 
amended. Mobilized servicemembers would receive 1 month of ``tier one'' 
benefits (currently, $1034 per month) for each month of activation 
after 90 days active duty, up to a maximum of 36 months for multiple 
call-ups.
    A servicemember would have up to 10 years to use remaining 
entitlement under Tier One or Tier Three programs upon separation or 
retirement. A Selected Reservist could use remaining Second Tier MGIB 
benefits only while continuing to serve satisfactorily in the Selected 
Reserve. Reservists who qualify for a reserve retirement or are 
separated/retired for disability would have 10 years following 
separation to use all earned MGIB benefits. In accordance with current 
law, in cases of multiple benefit eligibility, only one benefit may be 
used at one time, and total usage eligibility extends to no more than 
48 months.
    MOAA strongly supports enactment of a ``Total Force Montgomery GI 
Bill''.
                   other educational benefits issues
    Benchmarking MGIB Rates to the Average Cost of Education. 
Department of Education data for the 2005-2006 academic year show the 
MGIB reimbursement rate for full-time study covers 61 percent of the 
cost at the average public 4-year college or university. MOAA 
recommends the Committee increase MGIB benefit rates to keep pace with 
the average cost of education at a 4-year public college or university.
    Enrollment Option for Career Servicemembers who Declined ``VEAP''. 
Approximately 50,000 career servicemembers who continue to serve on 
active duty declined to enroll in the precursor to the MGIB known as 
``VEAP'', the Post-Vietnam Era Veterans Education Assistance Program 
(Chapter 32, Title 38). Many declined VEAP on the advice of military 
counselors. They were told that they would do better to invest the VEAP 
enrollment fee of $2700 and wait to enroll in the coming Montgomery GI 
Bill. MOAA supports enactment of H.R. 269.
    Transferability of Benefits. About two-thirds of today's force is 
married. Many reenlistment decisions are based on family needs. MOAA 
supports enactment of legislation to permit a servicemember to transfer 
up to one-half of remaining MGIB-AD entitlement to immediate family 
members in exchange for a career commitment (e.g., those who commit to 
serve at least 14 years normally will later complete 20 or more years 
service).
    MGIB Eligibility for Certain Officers. Under current law, officers 
commissioned from a Service Academy or Senior ROTC scholarship program 
are ineligible for the MGIB. Most officers today are required to obtain 
advanced degrees for future assignments and promotion competitiveness. 
But Service tuition assistance programs are limited to a discrete 
number of designated specialties. MOAA recommends the Committee 
consider establishment of MGIB entitlement for officers commissioned 
from a Service Academy or Senior ROTC Scholarship program in exchange 
for extension of their active duty service commitment.
Uniformed Services Employment and Reemployment Rights Act (USERRA)
    MOAA is grateful to Congress for enacting legislation that requires 
the posting of USERRA rights and responsibilities in the workplace.
    We are also grateful for Veterans Affairs Committees' past support 
in urging that the Department of Labor issue implementing regulations 
and guidance for the USERRA. The new USERRA rule explains the law using 
a ``question and answer'' format that is clear and understandable.
    Other adjustments to the USERRA are still needed, however. It is 
our understanding that mobilized reservists are treated as ``severed 
employees'' with respect to their employer-based retirement plans such 
as 401k or 403b programs. Consequently, they are not authorized to 
contribute to retirement plans during the period of activation. 
Although employers must match any 401k contributions that would have 
been made during the absence upon the return to the workplace, the 
reservist is prohibited from making personal contributions during the 
period of lengthy active duty. MOAA recommends the Committee endorse a 
change to the USERRA that would permit optional contributions to 
reservists' 401k plans during a call-up.
Servicemembers Civil Relief Act (SCRA)
    MOAA has heard from active duty service families regarding tax 
problems that arise from changing duty stations. States of residence 
often treat military spouses differently than their sponsors with 
respect to the tax code and on matters such as the joint registration 
of vehicles at the new duty station. MOAA supports a review of these 
type issues with the goal of providing fair tax treatment of military 
families who are compelled to make frequent relocations.
Arlington National Cemetery Interment Rules
    On multiple occasions since 1998 the House of Representatives by 
unanimous or near-unanimous vote favorably reported legislation that 
would codify the rules governing interment in our Nation's most 
hallowed ground for its military heroes. In addition, this Committee 
has previously endorsed legislation that would authorize burial in ANC 
for reservists on inactive duty and for retired reservists eligible to 
retire but not yet 60 years of age.
    The most recent House-passed legislation would authorize an in-
ground burial to:
    <bullet> Members of the Armed Forces who die on active duty.
    <bullet> Retired members of the Armed Forces, including Reservists 
who served on active duty.
    <bullet> Former members of the Armed Forces who have been awarded 
the Medal of Honor. Distinguished Service Cross, Air Force Cross, or 
Navy Cross, Distinguished Service Medal, Silver Star, or Purple Heart.
    <bullet> Former prisoners of war.
    <bullet> Members of the National Guard/Reserve who served on active 
duty and are eligible for retirement, but who have not yet retired.
    <bullet> Members of the National Guard/Reserve who die in the 
performance of inactive duty training.
    <bullet> The President or any former President.
    <bullet> The spouse, surviving spouse, minor child and at the 
discretion of the Superintendent of Arlington, unmarried adult children 
of the above categories.
    MOAA understands that many Members of the Senate support 
codification of these rules, but also want to maintain longstanding 
tradition and practice of considering certain exceptions in the case of 
individuals who have made extraordinary contributions to the Nation.
    MOAA continues to recommend codification of the rules governing 
interment in Arlington National Cemetery.
Presumption of Service Connection for Hepatitis-C Infection
    Medical research has established that there is a significantly 
higher rate of Hepatitis-C (HCV) infection among veterans than in the 
general population.
    Before development of a reliable HCV screening test in the early 
1990s, many thousands of servicemembers were exposed to HCV through 
air-gun inoculations, surgery, other medical procedures, and 
battlefield exposure. Accordingly, it is reasonable to presume service-
connection for servicemembers exposed to the HCV virus prior to 
development of definitive screening tools.
    MOAA recommends legislation adding presumption of service 
connection for Hepatitis-C in servicemembers determined to have been 
exposed to this disease prior to development of definitive screening 
protocols in 1992.
Survivors Issues
    MOAA is extremely grateful to the Committee and Congress for 
passage of legislation last year to raise Servicemembers' Group Life 
Insurance (SGLI) to $400K, enact a Traumatic Injury Insurance rider to 
SGLI, and affirm the ``24-7'' principle for service-connected 
disabilities.
    SBP-DIC Offset. MOAA was extremely disappointed that House and 
Senate conferees failed to make at least some progress in the fiscal 
year 2006 Defense Authorization Act to ease the unfair law that reduces 
military Survivor Benefit Plan (SBP) annuities by the amount of any 
survivor benefits payable from the VA Dependency and Indemnity 
Compensation (DIC) program.
    Under current law, the surviving spouse of a retired member who 
dies of a service-connected cause is entitled to DIC from the 
Department of Veterans Affairs. If the military retiree was also 
enrolled in SBP, the surviving spouse's SBP benefits are reduced by the 
amount of DIC (about $1,000 per month). A pro-rated share of SBP 
premiums is refunded to the widow upon the member's death in a lump 
sum, but with no interest. The offset also affects all survivors of 
members who are killed on active duty. There are approximately 60,000 
military widows/widowers affected by the DIC offset.
    MOAA believes SBP and DIC payments are paid for different reasons. 
SBP is purchased by the retiree and is intended to provide a portion of 
retired pay to the survivor. DIC is a special indemnity compensation 
paid to the survivor when a member's service causes premature death. In 
such cases, the VA indemnity compensation should be added to the SBP 
the retiree paid for, not substituted for it. It's also noteworthy as a 
matter of equity that surviving spouses of Federal civilian retirees 
who are disabled veterans and die of military-service-connected causes 
can receive DIC without losing any of their purchased Federal civilian 
SBP benefits.
    In the case of members killed on active duty, a surviving spouse 
with children can avoid the dollar-for-dollar offset only by assigning 
SBP to the children. But that forces the spouse to give up any SBP 
claim after the children attain their majority--leaving the spouse with 
only a $1,000 monthly annuity from the VA.
    MOAA notes that most large city fire departments continue 100 
percent of pay for survivors of firefighters killed in the line of 
duty, in addition to far larger lump sum payments than military 
members' survivors receive. Military members whose service costs them 
their lives deserve fairer compensation for their surviving spouses.
    MOAA strongly supports legislation to repeal the SBP-DIC offset 
introduced by Sen. Nelson (D-FL) (S. 185).
    Retain DIC on Remarriage at Age 55. Legislation was enacted in 2003 
to allow eligible military survivors to retain Dependency and Indemnity 
Compensation (DIC) upon remarriage after age 57. At the time, 
Congressional staff advised that age-57 was selected only because there 
were insufficient funds to authorize age-55 retention of DIC upon 
remarriage. MOAA's goal remains age 55 retention of DIC upon remarriage 
in order to bring this benefit in line with rules for the military SBP 
program and all other Federal survivor benefit programs.
                               conclusion
    The Military Officers Association of America greatly appreciates 
the opportunity to present the Association's legislative priorities on 
veterans' health care and benefits issues for the second session of the 
109th Congress.

    Chairman Craig. Well, thank you very much.
    Now let's turn to Rose Lee, chairman, Legislative 
Committee, Gold Star Wives of America. She is accompanied by 
Edith Smith, member, Legislative Committee, Gold Star Wives.
    Please proceed, Rose.

    STATEMENT OF ROSE ELIZABETH LEE, CHAIRMAN, LEGISLATIVE 
         COMMITTEE, GOLD STAR WIVES OF AMERICA, INC.; 
ACCOMPANIED BY EDITH SMITH, MEMBER, LEGISLATIVE COMMITTEE, GOLD 
                  STAR WIVES OF AMERICA, INC.

    Ms. Lee. Yes. Thank you very much, Mr. Chairman. Good 
morning to you, and thank you for the opportunity to testify 
before you today on behalf of Gold Star Wives.
    In the audience, by the way, are a few Gold Star Wives 
members, I must add.
    Gold Star Wives was founded in 1945 and is a 
Congressionally chartered service organization comprised of 
surviving spouses of military servicemembers. We are the widows 
of those who died while on active duty or as a result of a 
service-connected disability.
    I will present to you the collective goals of the Gold Star 
Wives with the hope that they will alert you to certain 
discrepancies and inefficiencies that you may be able to 
alleviate in your deliberations this year.
    I want to thank the Members of this Committee and the staff 
for your continued support of programs that directly support 
the well-being of our servicemembers' widows and their 
families.
    Too often, we feel that survivors, widows, and orphans, if 
you will, are overlooked. They shouldn't be. A couple of years 
ago, I took this snapshot of the VA's mission statement that is 
on the wall of the VA building. It is Lincoln's statement, and 
it reads: ``To care for him who shall have borne the battle and 
for his widow and his orphan.''
    Last month, I attended the VA's budget briefing, and at 
this briefing, I was glad to hear them say that they had 
convinced OMB and got the budget increase requested for 2007.
    What bothered me is that nowhere in this briefing handout 
did the words ``survivors'' or ``widows'' and ``orphans'' 
appear. We seem to get lost in the shuffle. We hope that these 
oversights will be corrected and we are not forgotten.
    If there is one message I could leave with you today, it is 
that there is never enough good communication. The casualty 
assistance calls officers have a difficult mission in a 
difficult time, but they don't always know about the benefits 
and entitlements managed by the VA or the DOD.
    Gold Star Wives sponsors a chatroom for new widows 
following 9/11. New widows joined this chatroom and asked 
questions about benefits. Our widows do need our help.
    We need to examine the coordinating process between 
agencies more closely and work hard to prevent these widows and 
their children from encountering gaps in identifying benefits.
    The VA and DOD have cohosted meetings that focus on 
improving outreach to surviving family members. Thanks to you, 
Mr. Chairman, VA has created a survivors Web site that offers 
communications channels for all service widows and widowers. We 
participate in this outreach and applaud these efforts. 
However, often widows still do not even know where to turn 
simply to identify their benefits.
    Periodically, by the way, thanks to your chief of staff, 
Ms. Lupe Wissel, I sent e-mails to the chatroom to remind them 
of the survivor Web site. I also frequently provide them with 
contact information on the Military Services Headquarters 
Casualty Assistance offices. However, to enhance these efforts, 
Gold Star Wives asks your serious consideration of creating an 
oversight office for survivors across the VA and DOD to assure 
improved delivery of benefit information and benefits to 
survivors.
    Despite valiant efforts over the past year, the dollar-for-
dollar offset of survivor benefit plans--that is the SBP--
annuity payments from the VA's DIC was not eliminated.
    To illustrate the bad publicity that this issue is getting, 
the New York Times op-ed published an article by Attorney Dan 
Shea on February 13, 2006, just last month, in which he wrote: 
``My brother LTC Kevin Shea was killed by a rocket attack in 
Falluja on September 14, 2004.'' Dan Shea went on to describe 
the problem which prevents his brother's wife to receive both 
SBP and DIC without offset. We do recognize you must act with 
your colleagues on the Committee on Armed Services on this 
issue. We thank Senator Bill Nelson for introducing S. 185 to 
eliminate the offset and encourage Congress to provide this 
real relief for our military surviving spouses.
    Current law provides for remarriage at age 57 to retain VA 
benefits. For those who remarried before the law was enacted, 
there was a 1-year period to apply for reinstatement. Lowering 
the age to 55 would bring this benefit in line with rules for 
SBP and other Federal survivors programs and open up the 
reinstatement period with renewed outreach efforts to make 
survivors aware of their eligibility.
    There are inequities for the child survivor that needs 
immediate attention. The additional monthly $250 child DIC 
payment per family only applies to survivors of deaths after 
January 1, 2005. This should be made retroactive to October 7, 
2001. It makes no sense that the survivors of those who died 
first should be prohibited from accessing a benefit given to 
survivors of those who died later in the same war.
    The program evaluation of benefit study recommended that 
surviving spouses with dependent children receive the $250 for 
5 years instead of 2 years that this has currently provided, 
and that amount should be indexed for inflation to avoid a 
devaluation of the benefit.
    Unfortunately, those recommendations were ignored. The $250 
child DIC is the only DIC benefit that doesn't receive the 
cost-of-living adjustment. We request that the Committee work 
on this until it is given the rightful COLA.
    CHAMPVA currently does not carry with it a dental plan. In 
order to increase beneficiaries' access to dental care at a 
reasonable cost, Gold Star Wives seek the widows and all 
CHAMPVA beneficiaries the ability to purchase a volunteer 
dental insurance plan similar to the TRICARE program for 
military service retirees' dental care. Gold Star Wives 
recommend Congress fix this and provide a dental plan for 
CHAMPVA beneficiaries.
    We request Congress to review how the DIC rate is 
established, which is currently a flat rate of $1,033. The SBP 
is calculated at 55 percent of retired pay, as if the member 
had retired for total disability on the date of death. We 
recommend that the DIC be calculated in a similar manner at 55 
percent of the disabled veteran's 100 percent disability 
compensation. We recognize that there are complexities in this, 
depending on rank of the deceased and on date of death, but we 
do believe this would help alleviate growing financial 
difficulties of widows from wars prior to this conflict who are 
receiving only DIC.
    In conclusion, we do not want our widows to be forgotten, 
whether they are experiencing their losses in the global war on 
terror or over the past 5 years, or whether they are members of 
the so-called ``greatest generation'' and experienced their 
loss many years ago during World War II.
    I thank this Committee for using this hearing as one more 
avenue of awareness and education and for giving me an 
opportunity to share my thoughts and the goals of Gold Star 
Wives.
    We will be happy to work with the Committee on any of these 
initiatives.
    Thank you.
    [The prepared statement of Ms. Lee follows:]
Prepared Statement of Rose Elizabeth Lee, Chair, Legislative Committee, 
                    Gold Star Wives of America, Inc.
    Mr. Chairman, Senator Akaka and Members of the Senate Veterans' 
Affairs Committee, I would like to thank you for the opportunity to 
testify before you today on behalf of all Gold Star Wives regarding the 
importance of addressing critical services for America's military 
widows and their children.
    My name is Rose Lee. I am a widow and I am here before you as the 
Chair of the Gold Star Wives (GSW) Committee on Legislation. I am also 
currently President of the Potomac Area Chapter. In the past, I have 
held the positions of National President and Chair, Board of Directors 
for GSW. For many years now I have been working to achieve the overall 
goals of the Gold Star Wives, and more specifically to assist our 
young, new widows, one by one, wind their way through the maze that 
lies before them with first notification of the death of their loved 
one.
    The Gold Star Wives of America, Inc. was founded in 1945 and is a 
Congressionally chartered service organization comprised of surviving 
spouses of military servicemembers who died while on active duty or as 
a result of a service-connected disability. We could begin with no 
better advocate than Mrs. Eleanor Roosevelt, newly widowed, who helped 
make GSW a truly national organization. Mrs. Roosevelt was an original 
signer of our Certificate of Incorporation as a member of the Board of 
Directors. Many of our current membership of over 10,000 are the widows 
of servicemembers who were killed in combat during World War II, the 
Korean War, the Vietnam War and the more recent wars including the one 
we are currently in, the Global War on Terrorism (GWOT).
    In my testimony I will respond to your request for our legislative 
views on the past year, an assessment of the present, and a look ahead 
into 2008. In doing so, I will present to you the collective goals of 
the Gold Star Wives with the hopes that they will alert you to certain 
discrepancies and inefficiencies that you may be able to alleviate in 
your deliberations this year.
    I do want to thank the Members of this Committee and the staff for 
your continued support of programs that directly support the well-being 
of our servicemembers' widows and their families. It is imperative that 
the difficulty of the sacrifice of our husbands' lives should not be 
compounded by lack of information, confusing information and sometimes 
even erroneous information that prevent our widows from accessing the 
assistance she needs to begin the rest of her life without that core 
person who had been her most critical support.
    Too often, we feel that survivors--widows and orphans if you will--
are overlooked, though they shouldn't be. A couple of years ago, I took 
a snapshot of the VA's Mission Statement that's on the VA building--its 
Lincoln's statement: ``To care for him who shall have borne the battle 
and for his widow, and his orphan.'' Last month, I attended the VA's 
budget briefing. I was glad to hear them say, that they convinced OMB 
and got the budget increase requested for 2007. What bothered me is 
that nowhere in the briefing handout did the words ``survivors or 
widows and orphans'' appear. We seem to get lost in the shuffle--we 
hope that these oversights will be corrected and we are not forgotten.
                             the challenge
    We are unmistakably in a time of war. Warriors are dying and 
leaving behind young families. If there is one message I could leave 
you with today it is that there is never enough good communication. The 
Casualty Assistance Calls Officers (CACOs) have a difficult mission in 
a difficult time. They act to assist survivors from the death 
notification to assistance with coordinating funeral arrangements to 
applying for benefits and entitlements. They do a valiant job but CACOs 
are not trained to be the subject matter expert for the benefits and 
entitlements managed by the VA or the DOD.
    Our widows need our help. We need to identify and reach out to 
them. In addition, we must coordinate with our counterparts in other 
agencies to ensure that the message given is thorough and consistent as 
they transition to their lives made forever different by the loss of a 
loved one.
    Gold Star Wives sponsors a chat room for new widows following 9/11. 
New widows join this chat room and ask questions about benefits. One 
recent example concerns a remarried widow with two children. She was 
told by her assigned Casualty Assistance Officer that upon her 
remarriage, her children are no longer covered by the Survivor Benefit 
Plan (SBP), but she couldn't understand why and asked that question in 
the chat room. I sent her question to Mr. Brad Snyder, Armed Forces 
Services Corporation and to Mr. Mark Ward, Department of Defense (DOD). 
Mr. Snyder and Mr. Ward both agreed that the remarried widow's children 
are indeed eligible for SBP. They instructed her to contact the 
Headquarters Casualty Assistance Office to get her records corrected 
and have her two children receive the SBP until age 22 if in college. 
This is an example of wrong information provided by the assigned CAO. 
Just imagine if she didn't question the reason why, her children would 
not have received their rightful SBP benefit throughout their childhood 
years.
    We need to examine the coordination process between agencies more 
closely and work hard to prevent these widows and their children from 
encountering gaps in identifying benefits.
                         government initiatives
    The Departments of Veterans Affairs (VA) and Defense (DOD), 
including the Military Services, have several on-going programs which 
merit attention as critical facets in serving widows in this most 
difficult time of their lives. These organizations together have 
cohosted meetings that focus on improving outreach to surviving family 
members. VA in collaboration with DOD and the Social Security 
Administration has created a Survivors Web Site that offers 
communication channels for all services widows and widowers who are 
entitled to and need to continue their daily living. Often widows do 
not even know where to turn simply to identify their benefits. We 
participate in this outreach and applaud these efforts. To enhance 
these efforts, GSW asks your serious consideration of creating an 
oversight office for survivors across the VA and DOD to assure improved 
delivery of benefit information and benefits to survivors.
                           bridging the gaps
    Getting the right information to the right people at the right time 
is important. Getting the right benefit is important as well. There are 
gaps in the benefit for survivors that we have called for corrective 
action on over time. Most will not be new to you. It is time to act.
    1. Despite valiant efforts over the past year, the dollar for 
dollar offset of Survivor Benefit Plan (SBP) annuity payments by 
benefits from the VA's Dependency and Indemnity Compensation program 
was NOT eliminated. The SBP was meant to provide income protection for 
survivors. This income is not protected when the DIC benefit offsets 
the SBP income to which a survivor is entitled, sometimes eliminating 
the entire SBP. To illustrate the bad publicity that this issue is 
getting, the NY Times Op Ed published an article by Attorney Dan Shea 
on February 13, 2006 in which he wrote: ``My brother LTC Kevin Shea was 
killed by a rocket attack in Falluja on Sept. 14, 2004. He knew the 
risks when he joined the Marine Corps in 1989. But he also thought that 
if anything ever happened to him, the United States government would 
take care of his wife Amy and his two children. Sadly, that's not the 
case.'' Dan Shea went on to describe the problem which prevents his 
brother's wife to receive both SBP and DIC without offset. We recognize 
you must act with your colleagues on the Committee on Armed Services on 
this issue. We thank Senator Bill Nelson for introducing S. 185 and 
encourage Congress to provide this real relief for our military 
surviving spouses now.
    2. The law currently allows for surviving spouses who remarry after 
age 57 to retain their VA DIC survivor benefit. For those who remarried 
before that law was enacted, there was a 1-year period to apply for 
reinstatement. Communication in the form of outreach was lacking during 
the retroactive period. We recommend that two equitable changes to the 
law are made:
    a. allow survivors to retain DIC on remarriage at age 55 in order 
to bring this benefit in line with rules for SBP and other Federal 
survivor programs; and
    b. open up the reinstatement period with renewed outreach efforts 
to make survivors aware of their eligibility.
    3. There are inequities among several payments for the child 
survivor that need immediate attention. The SBP child option applies 
now only to survivors of deaths after November 24, 2003. We seek this 
benefit to be linked to October 7, 2001, the beginning of the Global 
War on Terror as are other survivor benefits. Similarly, the additional 
monthly $250 child DIC payment per family only applies to survivors of 
deaths after January 1, 2005. This too should be linked to October 7, 
2001. It makes no sense that the survivors of those who died ``first'' 
should be prohibited from accessing a benefit given to survivors of 
those who died later in the same war. There's another grievous 
oversight concerning the $250 child DIC. The program evaluation of 
benefits study recommended that surviving spouses with dependent 
children receive the $250 for FIVE years instead of TWO years this is 
currently provided and that amount should be indexed for inflation, to 
avoid a devaluation of the benefit. Unfortunately, those 
recommendations were ignored. I want to note that the $250 child DIC is 
the only DIC benefit that doesn't receive the Cost of Living Adjustment 
(COLA). However, we wish to thank those of you who tried to include a 
COLA in legislation for the $250 child DIC.
    4. CHAMPVA, the Civilian Health and Medical Program of the 
Department of Veterans' Affairs, currently does not carry with it a 
dental plan. In order to increase beneficiaries' access to dental care 
at a reasonable cost, GSW seeks for widows and all CHAMPVA 
beneficiaries the ability to purchase a voluntary dental insurance 
plan. We are in agreement that the model of the TRICARE program for 
military service retirees for dental care in which the payment of 
premiums or services is completely funded by the enrollee is an 
acceptable model. Beneficiaries are simply looking for affordable 
dental care, which can be accomplished through a group plan. Allowing 
for assignment of VA benefits to cover the cost of dental insurance 
premiums would be an additional benefit to ease the payment process. 
This would require a modification to Title 38, Chapter 53.
    5. We would like to begin the process of reviewing how the DIC rate 
is established, which is currently a flat rate of $1,033. The SBP is 
calculated at 55 percent of retired pay, as if the member had retired 
for total disability on the date of death. We recommend that the DIC be 
calculated in a similar manner at 55 percent of the disabled veterans 
100 percent disability compensation amount. We recognize there are 
complexities in this depending on rank of the deceased and on date of 
death, but we do believe this would help alleviate growing financial 
difficulties of widows from wars prior to this conflict who are 
receiving only DIC. We would welcome the opportunity to work with the 
committee in determining how to implement these changes, which will 
provide more equitable compensation to our survivors.
    Finally, there are three other issues that we want to bring to your 
attention:
    1. Widows whose husband died in VA hospitals due to wrongful VA 
hospital care receive only DIC without any other VA benefits (Title 38 
USC 1151). We urge the Committee to support the measures necessary to 
allow these widows to be entitled to the CHAMPVA benefit also. These 
wrongful deaths are not much different than those killed by friendly 
fire.
    2. We recommend that the Committee ensure that medical benefits be 
provided fairly and equitably include surviving spouses and eligible 
children (i.e., seek legislation to remove Part B penalties and 
interest for late enrollment and promote a feasibility study to convert 
VA facilities to Long Term Care facilities which would welcome widows/
widowers).
    3. Education benefits for surviving spouses who are on active duty 
should be able to use the education benefit derived from her deceased 
husband while still serving on active duty. Currently, the active duty 
widow must resign from the military in order to use the derived 
educational benefit. GSWs urge this Committee to review and change this 
law.
                               conclusion
    In conclusion, we do not want our widows to be forgotten whether 
they are experiencing their losses in the Global War on Terror over the 
past 5 years or whether they are members of the so-called Greatest 
Generation and experienced their loss many years ago during World War 
II. Whenever the ultimate sacrifice is given, there is family left 
behind. In the same way we have asked some to give their lives, we have 
also asked some to continue their lives with a chasm so large it is 
difficult to transgress. Let us show the spirit of this Nation by not 
forgetting these widows, whose numbers grow daily.
    I thank this Committee for using this hearing as one more avenue of 
awareness and education and for giving me an opportunity to share my 
thoughts and the goals of the Gold Star Wives. We will be happy to work 
with the committee on any of these initiatives. Thank you.

    Chairman Craig. Rose, thank you very much, and again, to 
all of you, thank you very much for your time here and your 
testimony.
    Before I run by a couple of questions--and I will offer 
some of them in kind of a generic way that you may all wish to 
respond to--it is fresh in my mind that you, Rose, had 
mentioned, if you will, the charge of the VA.
    I just finished a book in which Lincoln at that time in his 
life and on through to his assassination--well, I should say 
the book dealt with just that period. It is called ``Manhunt.'' 
I recommend it to all of you. It is a very good book, but what 
is coincidentally unique, that speech in which that statement 
is embodied was his second inaugural speech delivered on March 
4, 1865. Today is March 2, so on Saturday, 141 years ago--I 
think, if my math is correct--and from that point forward, we 
have used that thought to remind ourselves of our 
responsibility as a Nation, appropriately so and I think 
necessary. I ran right into it again as I started this book, 
because that is about when the book starts, during that period 
from the second inaugural speech on to the collapse of the 
confederate capital in Richmond and then on down the road to 
his assassination and the 12 days in the effort to capture John 
Wilkes Booth. I highly recommend it, a good book to read, 
fascinating history.
    My question to all of you, because you have all spoken to 
it, as have I, is the challenge we have in front of us today--
and it is not going to go away, it is going to continually 
increase--is if we do not use the President's proposal or VA's 
proposal and find no alternative source of revenue--and you 
have said it--we are looking at approximately for this budget 
about a $795 million shortfall. I don't believe any VSO today 
has come out in favor of this proposal, and I understand that, 
and I understand the tough choices that are involved in here.
    So my challenge to you is, if not this, then what? I am not 
going to put this Congress through another emergency funding 
device and just stack it onto the deficit. I don't think that 
is responsible for anyone, including the VA.
    The Chairman of the Budget Committee and I have had some 
talks with implementation already. He is very frustrated by 
this, as is Senator Hutchison, the Chair of the Appropriating 
Committee, because the Budget Committee is just beginning to 
sit down to put all of this together and to make the 302(b) 
allocations which must adhere to the budget framework.
    It is a tremendous challenge for all of us. There is no 
question about it. As I mentioned, we are looking at a VA 
budget that is nearly doubling now every 6 years. Good health 
and all of that says that.
    I chair a VA Committee in which we will look at our first 
$100 billion budget in a relatively short time. We are almost 
on the threshold of that now, looking at the multiplier of just 
what is in the President's budget of about 11.3 percent as it 
relates to health care.
    Visit with me, and I mean it just that way. Visit with me 
about what we do. Back when we reformed this program in the 
1990s, almost every organization out there said, ``No. The 7s 
and 8s certainly can afford to pay something to gain access.'' 
It was reasonable. It was appropriate.
    Now, back in 1996 and 1997, we all know that VA health care 
was maybe not the health care of first choice for a lot of 
veterans it is today. We have improved it dramatically. We all 
know that. It has been written up and recognized nationwide as 
one of the top health care providers in the Nation today. 
Obviously, that sends a signal out to all, here is a program 
that you can qualify for if you are a veteran.
    For those that are not disabled, for those that are not 
service-connected, I understand the minimum income level. Maybe 
that is an adjustable proposition, but I would find it very 
difficult for someone out there who meets all of the 
qualifications, who has health care now--90-some percent of 
those in the 7s and 8s have health care now, access to 
insurance all of that--for $21 a month, to deny what they have 
got, to come to what they can get.
    I am not sure that is good policy if we don't recognize all 
of the capability of our health care delivery system and the 
private and the public and work to resolve that because the 
true commitment we have, in my opinion, is truly to the 
disabled and the needy, and that has to have a priority in it 
that we just simply cannot deny.
    You have all described--and I have been there. I have seen 
it. I am spending time with these young men and women coming 
out of Iraq and Afghanistan, and they are unique, unique in 
spirit, but also unique in injury because of our phenomenal 
capabilities in the field today and our immediate response to 
delivering that.
    I flew out of Baghdad to Landstuhl, Germany, and I was 
walking through the hospital corridors, and the director of the 
hospital said to me, ``Those who we will treat this evening 
have not yet been injured,'' and I am in Germany, not Iraq. I 
found that statement that has stuck in my mind--because never 
have we applied that capability before, but we are today, and 
there they are, out at Bethesda and Walter Reed and other 
places across the country. They are surviving, and they are 
going to be, in time, productive citizens in most instances. 
Some will not be, and we have phenomenal obligations to them.
    Well, I have gone on long enough. Visit with me, if you 
would. I cannot, in a fiscally responsible way, turn my back on 
the need to look for alternative revenue measures in the 
totality of the VA budget.
    Deirdre.
    Ms. Parke Holleman. Mr. Chairman, Mr. Barnes did--I wasn't 
here when the changes--the creation of 7s and 8s, occurred. I 
was here, however, when there was a large push to have Medicare 
subvention----
    Chairman Craig. Yes.
    Ms. Parke Holleman [continuing].--both on the DOD and the 
VA side, and it sort of frittered away.
    As Mr. Barnes said, these are people who have paid into 
Medicare. The Medicare budget is getting--and I know it is 
perhaps undiplomatic--a break on the cost there with what is 
being covered by the VA. A subvention of VA, subvention of 
Medicare to the VA budget, I think would go a long way, since 
so many of the 7s and 8s are over 65 at this point, to paying 
for that. I know that would be a huge war because people 
protect their own budgets. I do understand the difficulties, 
Lord knows, in dealing with this, but I do think that would be 
an appropriate thing.
    And I did say, as you said, with the 90 percent of these 
folk having OHI, having other health care, they will be the 
people who do have the health care. A greater effectiveness in 
collecting from the private sector for the care, that is being 
provided, just as they would collect from another hospital. It 
would be totally appropriate.
    I would add something that has nothing to do with it. I 
haven't gone to read ``Manhunt'' yet, but I understand Harrison 
Ford bought it to star in it. So, presumably, we will all see 
it pretty soon.
    Mr. Barnes. Mr. Chairman.
    Chairman Craig. I think you are right. I don't think he is 
going to be John Wilkes Booth, though.
    Ms. Parke Holleman. No.
    Chairman Craig. Yes, Joe.
    Mr. Barnes. Mr. Chairman, I appreciate the challenge here 
as do our members. A couple of observations about the 
perception of priorities with regard to the entire budget 
process. With regard to funding veterans' programs, our members 
question this in a time of incredible amounts of money being 
allocated for earmarks in the appropriations process. They look 
at this from outside--obviously, we are very involved in this 
process--and bring their concerns forward, but their perception 
is about the priorities--and this is very much the case on the 
active-duty side with regard to TRICARE--and the proposed fees 
that are being--and were referenced by, I believe, Deirdre in 
her presentation. This is something that we are looking at very 
closely and we are very concerned about with regard to TRICARE, 
the amount of the GDP that is being allocated for Defense and, 
by association, Veterans Affairs is lower proportionately than 
it has been historically, particularly during times of war.
    There is discussion that if TRICARE--if retirees pay a fee 
for TRICARE Prime, which they do now, 230/460, which is related 
to the fee proposals on the DOD side, that by association the 
Priority 7s and 8s should also pay a fee, and I understand the 
rationale for that.
    However, there is a significant difference with regard to 
access standards. Military retirees in TRICARE by paying that 
fee have access, guaranteed access, to care. Whereas, if these 
fees were authorized and implemented in the Department of 
Veterans Affairs, these veterans would go on a long waiting 
list, and there is a significant difference with regard to the 
TRICARE fees.
    I will echo again may comments about Medicare subvention. 
Our membership is perplexed that this is not being looked at or 
that it is not possible. It is an issue that was addressed in 
the Presidential Task Force, which I am sure you are familiar 
with. I draw attention, perhaps renewed attention, to the 
recommendations that are there with regard to seamless 
transition, working smarter with the Department of Veterans 
Affairs health care program and DOD.
    There are authorizations, programs that have been 
authorized since I believe the early 1980s that have been 
really slow to be implemented. There are opportunities for cost 
savings, but I appreciate your concern and the challenge here, 
as do our membership. Hopefully, that sheds a little 
perspective from our members.
    Chairman Craig. Surely.
    Mr. Brown. Thank you again, Mr. Chairman, for I guess the 
additional opportunity to speak.
    First and foremost, ditto on the comments of my two 
colleagues here, and since you suggested looking within the 
entire VA budget for potential funding resources, I would like 
to take a moment first to begin with my own personal situation 
because I am a disabled veteran.
    You hear the VA, and I know the Administration routinely 
used the word as it relates to the VA, ``management 
efficiencies,'' improving management efficiencies. I would 
suggest that the Committee take a hard look at either policy or 
legislation to induce a change in behavior in the way that VA 
applies some of their management principles.
    As in my own situation, I retired from the military. I was 
facing the possibility of actually a third medical evaluation 
board. I have severe damage to my spine, relatively minor 
spinal cord injury and a lot of damage to my joints. So, 
essentially, I guess you could say my practical use toward the 
active-duty service--I was deemed used up and they suggested I 
retire.
    At my retirement physical, I went through an MRI. I had to 
go back to see the neurologist. I saw the neurosurgeon. I saw 
the orthopedic surgeon, the rheumatologist. I was poked and 
prodded by just about every specialist that you could possibly 
think of. They did an outstanding job for me in preparing my 
package and sent me on my way, and in turn, I turned that 
information over to the VA.
    About 6 months after I retired, the VA turned around and 
called me in, did another MRI, sent me to the same specialist 
and whatnot, presumably to establish service connection, 
despite the fact my medical records are actually about that 
thick and my condition is very well documented for about the 
past 14 years.
    My point here is this is a VA policy that they do this, and 
as part of the seamless transition process, if we could just 
get the VA to rely on the diagnosis and the establishment of 
service connection made by the DOD, we are not talking millions 
here. We are talking probably billions could be saved by that, 
by that change in focus alone.
    The second one is when I was called up to the VA, I came 
home. It was like 8, 9 at night, and I had a message on my 
answering machine at home saying this is a reminder about your 
appointment tomorrow. Nobody sent me a letter. Nobody called 
me.
    When I called the VA that following morning, come to find 
out, I had had an appointment the day prior that they failed to 
notify me, and I am told that this is a routine process in 
talking to a lot of our members. There are lots of instances 
where patients are scheduled for appointments. I am assuming 
the doctor is sitting there waiting. Yet, they haven't notified 
the patient to make sure that they are there.
    Likewise, depending on the situation, when the VA calls you 
to the facility to do like an evaluation or a CMP exam, they 
are required to reimburse the individual, and in my case, I was 
called to the VA facility up here on Irving Street one time--I 
wasn't even aware of the reimbursement part--and the doctors 
weren't there. They had canceled the appointment, but they are 
still required to reimburse me. So there again, a change in 
those two policies would save some additional money.
    The last one would be in regard to the Priority Group 7 and 
8 folks, the ones that are currently in the system right now. 
VA at one time I know had a policy where if you were waiting 
for an appointment over 30 days, then you could have a 
prescription written by a civilian provider. They would fill 
that prescription. I might suggest that maybe we need to look 
at lowering that time frame because the reality of it is a lot 
of them are not going to be seen within 30 days, and even if 
they are, it is at the 29th day just to meet the bare minimum. 
If that is the only thing that they are going to use the VA 
for, why would we bring them in and have them come and see a 
doctor for an issue that we already know that they are required 
to receive medication for?
    Again, Mr. Chairman, that is just three thoughts, and 
hopefully, that will help.
    Chairman Craig. I appreciate that.
    Mr. Norton. If I could just add a couple of brief comments, 
Mr. Chairman, I would like to second what my colleagues have 
said about VA Medicare subvention.
    As you probably know, a couple of years ago, the VA 
conducted an internal study of veterans enrolled in Priority 7 
and 8 who are Medicare-eligible. They found in this study that 
in order to access VA health care, they have to go through the 
procedures, the tests, the screenings, blood tests and so forth 
in order to get access to prescriptions.
    At the same time, they are using Medicare on the outside 
and obtaining those services. So the reality is that in many 
cases for Medicare-eligible veterans enrolled in 7 and 8, the 
Government is paying twice for the same services. The VA 
demonstrated this in its internal study.
    The second point I would make is that I believe in this 
room a couple of years ago, your predecessor, Senator Specter, 
said that at the time--and I believe the Senate ultimately 
passed a VA Medicare subvention test. What Senator Specter said 
at the time--and I remember it so clearly--was that he hoped 
that a test would demonstrate the potential of a win-win-win 
situation, a win for veterans certainly, the pre-eminent 
objective, a win for the Government overall, and a win for the 
VA health care system.
    So, if overall VA Medicare subvention is beyond the realm 
of the possible right now, certainly the idea of a test in 10 
facilities, which has already once passed the Senate and it has 
passed the House on a number of occasions, but never in both 
chambers in the same session, we believe that would be a way to 
get at this issue.
    Finally, I would reinforce the point that Morgan Brown made 
about cost efficiencies and cost savings. As you well know, the 
GAO just came out with a report fairly criticizing the VA for a 
lot of smoke and mirrors about how it calculates cost savings 
and cost efficiencies. I think all of us here feel that there 
is a lot of lack of credibility in terms of the VA numbers. We 
would hope that the Committee would frankly get on top of the 
VA to be rigorous in terms of finding out where are the real 
numbers here, and what are we really talking about in terms of 
the actual cost of operating the system. Then from there, 
debate can begin about how we can go forward to cost out this 
situation and meet the very critical challenge that you so 
articulately laid out for us.
    Chairman Craig. Thank you.
    Yes, Rose, please.
    Ms. Lee. Mr. Chairman, I want to tell you a little bit 
about something that I experienced quite a number of years ago. 
I was at a VA budget hearing in the early 1990s, and I was 
there just listening. All of a sudden, I heard that a 
particular benefit for widows was being eliminated. The reason 
it was being eliminated was because it has the least number of 
people affected and they were going to save money by just 
wiping out that one benefit on these widows. I think that is 
really unfair.
    In fact, as I talk with many of our widows, they agree with 
me. They say, ``Because we are the smallest group that is in 
this budget, why shouldn't they keep it instead?'' That is what 
I think we should do. When there is anything that has to be 
cut, they shouldn't have to cut the widows.
    Chairman Craig. I am not disagreeing with you at all, Rose.
    Ms. Lee. Thank you.
    Chairman Craig. Deirdre.
    Ms. Parke Holleman. I just can't contain myself. I was the 
care-giver where Morgan is entering his phase of dealing with 
disability. My husband and these ladies' husbands were 100-
percent disabled, and we were their care-givers. That means 
managing their care and paying the bills and all that.
    So my passion and real concern is those that are coming 
back that are young and returning from this war, in 29 months 
they will be Medicare-eligible, and then the financial 
incentive for the VA and the military treatment facility to 
treat the most expensive, the catastrophically ill, is not 
there. It is real easy to do this subtlely by--just 
appointments are difficult. These cases need more time and 
energy and skill, and so my husband, 100 percent disabled, 
never was able to access care in a VA.
    They did provide him with a battery-powered scooter with 
very little difficulty at all, but his access to care even got 
down to being when he refused to use the wheelchair where we 
could go to local doctor for cold and things where he could 
walk into the office, you know, with some ease.
    So I don't pretend to know what your answer is, but I am 
aware, since I belong to a couple of these associations, that 
most of their membership is older, and I am really concerned 
that we are not even telling our young people, while the 
attitude is we don't worry about it, you are here at X-military 
facility, and we are really going to take care of you.
    I would also like to point out there is supplemental 
insurance, to the best of my knowledge. While the supplemental 
insurance policies for Medicare are required at age 65 without 
pre-existing conditions that you can enroll, there is no law 
for those under 65 to be included in supplemental insurance 
without pre-existing conditions. So some of them maybe can 
speak more to that, but I just didn't want to see the 
youngsters left out.
    Chairman Craig. Well, thank you for those thoughtful 
comments. You all know the system very well, and many of you 
have been in it or accessed it. I think those are extremely 
valuable comments as we work our way through this.
    Let me recognize one of my colleagues that has joined us, 
Senator John Thune.
    John, do you have any opening comments you would like to 
make or questions you would like to ask of this group?

                 STATEMENT OF HON. JOHN THUNE, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    Senator Thune. Thank you, Mr. Chairman, and let me express 
my appreciation to you for holding this hearing to give our 
veterans service organizations an opportunity to weigh in on 
their legislative priorities before the Senate for this year 
and also to welcome the leaders of those service organizations 
and express my deepest appreciation to you for your very 
distinguished service to our country.
    As I have noted before, budgets are indicative of where a 
nation places its priorities, and clearly, veterans funding is 
a high priority for this Committee, for the Congress. I think 
in this budget request, it is one of the few areas of the 
budget that has been proposed to receive a generous increase in 
funding.
    I know there are organizations who have testified that it 
is still not sufficient to the need. Certainly, as we work 
through the budget and appropriations process up here, we will 
be listening closely to the input that we receive from your 
organizations and look forward to working through that process.
    Again, I want to just say thank you for your testimony 
today and for the record that you help us build in giving us 
some insights about what you believe are the highest needs.
    I have a couple of questions actually. Maybe I will submit 
one for the record because I can't probably get them all 
answered right now, but I do have one in particular I would 
like to raise with all of you because it is something that we 
hear about.
    One of the problems that veterans have expressed to me is 
the laborious process of having to reconcile their military 
records with their VA medical records, and these are some cases 
for veterans who are affected by illnesses or injuries several 
years after their service, being able to prove that their 
injury is, in fact, service-connected. And I see it evidently 
that some of you had mentioned that in your testimony, and I 
guess what I would like to know is what steps need to be taken 
to make sure that the Department of Veterans Affairs and the 
Department of Defense can have seamless access to the 
servicemembers' records, and how would you suggest that we 
alter the President's budget to combat that problem. Also, a 
follow-up question to that, do you think that the Independent 
Budget fairly addresses that issue?
    Mr. Barnes. If I may.
    Chairman Craig. Joe.
    Senator Thune. Go ahead.
    Mr. Norton. Thank you, Senator. I think it is a very 
important question.
    From our perspective, the objective that you talk about, I 
think, can be achieved by the development of what we call a 
single separation physical, a common platform for capturing 
information on servicemembers while they are on active duty.
    We believe that a separation physical can and should be 
designed that would address both VA protocols, as well as 
essential military medical management requirements.
    It is really amazing that when these young men and women 
come home, many of them wounded, they arrive at Walter Reed and 
Bethesda. There is no common physical even between Walter Reed 
and Bethesda, and as a result, problems accrue years later. 
That accrual really comes home in terms of the growing 
complexity of the VA disability system.
    So there are tremendous long-term benefits about getting 
seamless transition right up front. We think this is a major 
priority, especially during this time of war, and coupled with 
the development of a single separation physical, we believe 
more needs to be done to deliver benefits at discharge, the BDD 
program, Benefits Delivery at Discharge.
    There are about 137 military separation transfer points 
throughout the world where VA people are located and where 
servicemembers can apply and actually get their rating before 
they even separate. Getting this right up front, not only is 
good for servicemembers and veterans, but potentially 
downstream, it saves the Government a lot of money because you 
have the clear evidentiary documentation for what ailments 
occurred to them while they served their country.
    So your leadership on this and that of the Committee would 
be extremely important in pressing DOD and VA to get together 
and get this thing done for the benefit of our serving men and 
women.
    Mr. Barnes. Senator, I would just add to Colonel Norton's 
comments that on the DOD side, there is a project called the 
ALTA project which addresses this. We have been tracking this 
very, very closely. This was briefed at the recent TRICARE 
conference, and I would, as I said, echo his comments.
    The administrative challenge between the two Departments, 
while on the face of it, looks like that would be fairly 
simple, it is very, very complex. We appreciate your attention 
to that and encourage resourcing and questioning the respective 
Departments as opportunities allow as to how to enhance that.
    I can tell you firsthand from some of our members and some 
of the stories we hear--I think we have an example in our 
statement about individuals coming back from the war and what 
they have encountered--and I know that has been documented not 
just here, but in various, local newspapers, local members that 
have gone to serve and have come back, and they have had 
significant problems, as have, in the case if they expired, 
their widows with regard to benefits.
    Senator Thune. Thank you all very much. I appreciate your 
answers and again your testimony, and we look forward to 
working with all of you to make sure that we are doing the 
appropriate things and the right things to ensure that our 
veterans get all the benefits, receive all the benefits that 
they deserve.
    Certainly, this Committee is intensely interested, as I 
think the Chairman demonstrated last year as we went through 
the budget process, in making sure that the VA is appropriately 
funded to meet the need that is out there. So thank you very 
much for your testimony.
    Mr. Chairman, I yield back.
    Chairman Craig. John, thank you very much.
    Let me ask this. Several of you have mentioned this, and I 
think you did, Colonel, the Montgomery GI bill and the 
character of how we are using the Guard and Reserve today and 
the change there that is upon us.
    As was mentioned, 500 folks from Idaho, at one time a year 
ago this time, we had the second largest contingency of Guard 
and Reserve on a per-capita basis of any State in the United 
States in Iraq out of Idaho--and Afghanistan. There is no 
question, the character of how we look at the Guard may well be 
changing.
    Vice Chief Cody, General Cody, is talking about a 
substantial realignment of forces in relation to that. I had 
lunch with him recently, and he is saying that at a minimum of 
every 6 years, Guard and Reserve will go active. Of course, 
that is a significant change from our historic perception of 
the Guard and Reserve and our reflection of them within policy.
    So you are right to ask the question and to challenge us to 
review that in relation to the commitment and what the 
Montgomery bill does for them because it is a phenomenal asset.
    Now that they have served--and, in this instance, they were 
active. The 116th from Idaho was active for a period of, I 
think, 13 months and, of course, served in a foreign theater. 
They qualify, and yet you are right it extinguishes. That 
particular benefit does. I am going to be taking a look at 
that, to spread that out over what the new policy is, see how 
it fits, see what the realities of that are. It is an expensive 
item, but it is also a tremendously valuable asset, these young 
men and women who might find themselves finally at that point 
in their lives when they want to look at higher education for 
helping them out.
    Let me ask this question of you. I think I know what the 
answer is. I was amazed at an editorial published in The 
Washington Post last month which posed this question, and this 
is in relation to the current law that a veteran is not 
permitted to hire an attorney to assist in filing a claim for 
VA benefits.
    The quote was: ``If American soldiers are mature and 
responsible enough to choose to risk their lives for their 
country, shouldn't they be considered competent enough to hire 
a lawyer?'' Does anyone want to react to that rather astute 
observation on the part of The Washington Post?
    Ms. Parke Holleman. Well, as a lawyer, I always think we 
are of use.
    I think it would help a great deal of the repetitive nature 
of the filings that we have. So many people are not going to a 
veterans service offices. Some of the large groups have 
wonderful veterans services offices who, I am unhappy to 
concede, I am sure do it just as well as we do.
    However, the huge percentage are representing themselves. 
They are going pro se, and they don't plead right. The aid is 
not, you know, the help, as good as it may be when the VA is 
not successful. So there are filings after filings after 
filings, and when you are talking about the backlog and an 
efficient professional filing of an appeal might help 
enormously not just for that person, the strain, it is hard for 
lawyers to remember how exhausting a lawsuit or filings or 
waiting for something to happen are to people. It upsets them 
enormously. So the pending matter is not just difficult to the 
VA, but it is difficult to the individual.
    Certainly, that was a long time ago. I don't find any logic 
to it except history anymore that has barred that. I would 
think it would be a fine idea.
    Chairman Craig. Any disagreement with that statement?
    All right. Let me ask one last question because several of 
you have broached it, and probably what I am going to ask you 
to do is keep your eyes on it, and we will watch it and monitor 
it and see where we can nudge it along and insist that it get 
better from the physicals you talk about, the development of 
medical records. What I am talking about is the issue of smooth 
transition or seamless transition from servicemembers to 
veterans' status.
    I agree with those of you who have spoken to it. The 
Committee shares your goals for this seamless transition. It 
sounds awfully good, but the test is how it works obviously and 
the smoothness with which it works and hopefully the efficiency 
that it produces and the ability to connect together medical 
records and all of those things electronically.
    I know that work is underway on that. We are going to watch 
it and monitor it very closely. As reports come in to all of 
you, let us know about them, because we are going to stay on 
top of it. This is a modern sophisticated world out there, and 
if we can't get it right just simply because that isn't the way 
it was done in the past, shame on us.
    Talking about the issue is one thing. Doing it is another, 
and monitoring it and staying on top of it and maybe causing 
DOD and VA to think out of the box is at best a challenge, but 
certainly one that we can tackle.
    Anyway, beyond what you have said, any other 
recommendations in that particular area?
    Yes, Rose.
    Ms. Lee. Mr. Chairman, there are three issues that I didn't 
cover in my oral statement, but some of it I think overlaps. 
Well, it all concerns bucks, money.
    Chairman Craig. Sure.
    Ms. Lee. May I just list them off, please? We have a couple 
of widows that have been contacting me for quite sometime now, 
widows whose husbands die in a VA hospital, and their deaths 
were malpractice deaths. So they are given DIC, but no other VA 
benefit.
    The widows who have contacted me are requesting at least 
CHAMPVA as a benefit, in addition to just the DIC, and to us, 
we think it is similar to a wrongful death, killed by friendly 
fire. That is how we look at it.
    Then the other issue would be, we recommend that the 
Committee ensure that medical benefits be provided fairly and 
equitably, and that would include surviving spouses and 
eligible children. In other words, to seek legislation to 
remove Part B penalties and interest for late enrollment, and 
promote a feasibility study to convert VA facilities to long-
term care facilities, which would welcome widows and widowers.
    The third one--and this is becoming very common from our 
experience on the chatroom--we have young widows who are on 
active duty themselves, and they are having difficulty with the 
education benefit. They are not able to use their derived 
education--derived from their deceased military husband's 
education benefit while they are on active duty. They have to 
resign from the military service in order to use it, and these 
young ladies are also feeling this is terribly unfair. So that 
is another big issue that has come up, and it is really 
becoming quite common to have young widows who are still on 
active duty. There are other problems in that area, but this is 
one that has come to our attention over the past several 
months.
    Chairman Craig. Thank you.
    Ms. Lee. Yes, sir.
    Chairman Craig. We will take a look at that.
    Ms. Lee. Thank you.
    Mr. Barnes. Mr. Chairman.
    Chairman Craig. Yes, Joe.
    Mr. Barnes. If I could just respond and reiterate a point I 
was attempting to make in my oral statement. The final report 
of the Presidential Task Force to Improve Health Care Delivery 
for our Nation's Veterans, I believe that was June 2003. It has 
a number of recommendations in there.
    Chairman Craig. Yes.
    Mr. Barnes. Something that has not been brought up is where 
we are heading with the CARES initiative, BRAC actions, and 
DOD's re-basing initiatives, which are really significant and 
have major impact on personnel and many of the issues we are 
talking about today. So I just wanted to make that point.
    Chairman Craig. Yes. The point is well made. We have plenty 
of work to get done in this Committee. That is very true.
    Yes, Morgan.
    Mr. Brown. Yes. I would just say, Mr. Chairman, if you 
don't mind, I will swing back to the seamless transition issue 
real quick.
    Chairman Craig. All right. Please do.
    Mr. Brown. I honestly believe you really hit the nail on 
the head as far as the Committee is going to need to, I guess 
you could say, exercise a very deliberate oversight between the 
DOD and the VA on this.
    The first time I heard about the seamless medical record or 
the medical record that would track me and my care in DOD, and 
then in turn be used by the VA, was 25 years ago when it went 
through the processing station at Lackland. Admittedly, at this 
time, I am not even sure we had computers in the military back 
then, but as the GAO indicated in a fairly recent study within 
the past couple of years, the technology exists. The potential 
for savings is tremendous, and I would certainly hope that the 
Committee will do everything in its power to make sure that 
that happens, as I am sure we will.
    Chairman Craig. Thank you.
    Well, to all of you again, thank you very much. I don't 
even have to ask you to stay tuned. I know you will as we work 
our way through these issues. We are a phone call away or a few 
steps down a hallway, but as all develops, please work with us 
to see where we get. As I say, we are looking at some of the 
challenges we will tackle this year beyond the budget. We will 
spend the next month probably resolving the budget issues 
before we get on with some of these oversight issues, but we 
will certainly stay very active and tackle them. There is a 
great deal of work to be done out there.
    Mr. Barnes. Thank you.
    Ms. Parke Holleman. Thank you, Mr. Chairman.
    Ms. Lee. Thank you.
    Mr. Brown. Thank you, Mr. Chairman.
    Mr. Norton. Thank you.
    Chairman Craig. Thank you all very much. The Committee will 
stand adjourned.
    [Whereupon, at 11:30 a.m., the Committee was adjourned.]
  

                                  <all>

</pre></body></html>
